la

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent

RESPONDENT’S COURT AUTHORIZED (BY
JUDGE COSTA)
POST-HEARING WRITTEN SUBMISSION
AND
INCORPORATED REPORT ON RESPONDENT’S
REVIEW OF
WHAT WAS REPRESENTED TO HIM AS THE
LOUISIANA SUPREME COURT RECORD

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number:(504) 812-9185
AROD@Dwyerlaw.com

2a
RESPONDENT'S COURT AUTHORIZED (BY
JUDGE COSTAL
POST-HEARING WRITTEN SUBMISSION
AND

INCORPORATED REPORT ON RESPONDENT'S
REVIEW OF
WHAT WAS REPRESENTED TO HIM AS THE
LOUISIANA SUPREME COURT RECORD
MAY IT PLEASE THE COURT:
Respondent, Ashton R. O’Dwyer, Jr., appearing
in propria persona, offers, introduces and files into
evidence as “AROD EXHIBIT NO. 26,” the “Rules of
Disciplinary Enforcement” that were in effect in the
United States District Court for the Eastern District of
Louisiana on April 2,2008, when Judge Berrigan signed
her disciplinary Complaint (really Duval’s Complaint)
against Respondent. The transmittal email of Eastern
District Chief Deputy Clerk Carol Michel to Respondent
of November 30, 2018 is also part of AROD EXHIBIT
NO. 26.
AROD has averred that Lemelle and the other
Judges of the Eastern District Court should have
proceeded in the federal disciplinary case pursuant to
former Disciplinary Rule III(B), which was mandatory,
rather than on a “summary basis” pursuant to Rule
III(C), which AROD avers (and averred then) was
inapplicable. See AROD EXHIBIT NO. 2 in these
proceedings, and his “Exhibit 6(A)” in the State
proceedings, namely AROD’s “Complaint for
Declaratory Judgment and/or for Prospective Injunctive
Relief in Civil Action No. 08-3170 on the Eastern
District Docket, filed on May 5,2008, copy attached.
At oral argument, AROD suggested to the Panel
that it had the power to write a judicial opinion that

3a

addressed the PUBLIC CORRUPTION and judicial
and professional misconduct, which he exposed - matters
that were not previously addressed in any substantial
way by the corrupt Federal and State judicial and legal
systems at any level. AROD also suggested to the Panel
that the Public had a right to know about this
CORRUPTION, which has been “kept under wraps” for
more than ten (10) years, intentionally and willfully so.
AROD further suggested to the Panel that it had
the power to “take the bull by the horns,” and to do what
Lemelle and the Eastern District Bench failed to do in
April 2008, namely invoke former Eastern District Rule
III(B) of the former Rules of Disciplinary Enforcement
(AROD EXHIBIT NO. 26) and appoint an investigator
or investigators to investigate the case properly,
thoroughly and in an unbiased and unprejudicial fashion,
with anyone so appointed (be they “the United States
Attorney, his/her assistants, and/or any other member
or members of the bar”) being “as pure as the driven
snow,” and being UNAFFILIATED with and being
UNCONNECTED to the Eastern District of Louisiana
or with the Louisiana Plaintiffs’ Bar.
Recall that AROD also suggested to the Panel
that, because the Public has the right to know about the
CORRUPTION which he exposed, then “clear and
concise” instructions should be given to the
investigator(s) in order to afford AROD what was
denied to him in 2008, and to ensure that there was no
repeat of a Kangaroo-Court, rubber-stamp-type “coyer
up.” With that done, AROD expressed hope that, with
one or more proper, unbiased and unprejudiced
investigators, and with a proper, thorough and fully
transparent investigation and report pursuant to former
disciplinary Rule III(B), AROD would be deemed
credible, and the PUBLIC CORRUPTION that he

4a

exposed would no longer be allowed to flourish within
the jurisdiction of the Fifth Circuit.
The Panel should be made'aware of the fact that
the former Eastern District Rules of Disciplinary
Enforcement have been completely revised from how
they existed in 2008.1 aver that the “new” Rules, which
even changed the numbering system, from Roman to
Arabic numerals, are now even more weighed
AGAINST the accused than the former disciplinary
Rules. For instance, the “new” Rules speak in terms of
“limited investigation,” and appointment of a 12- person
standing “YES MAN” Committee to serve as both
investigator and prosecutor, and which I aver serve the
purposes of the likes of Lemelle and others who wish to
“cover-up” judicial and professional misconduct by
Court “insiders.”
“INCORPORATED REPORT BY RESPONDENT
OF HIS REVIEW OF WHAT WAS
REPRESENTED TO HIM AS THE LOUISIANA
SUPREME COURT RECORD,
FILED UNDER PENALTY OF PERJURY”
Ashton R. O’Dwyer, Jr., Respondent, declares
under penalty of perjury pursuant to the provisions of 28
United States Code, Section 1746, the following:
Judge Costa granted me leave to review the
contents of “the record” in my State disciplinary
proceedings, which was transmitted to the U.S. Court of
Appeals for the Fifth Circuit by the Louisiana Supreme
Court.
I availed myself of that opportunity on
Wednesday morning, November 28, 2018.
What I discovered upon reviewing “the record”
caused me to conclude that it will be IMPOSSIBLE for

5a
the Panel in Fifth Circuit Case No. 18-98009 to discharge
its “Selling versus Radford duty/’ as enunciated by
Judge Wisdom in the 1974 case of “In re Wilkes,” 494
F.2d 472 (5th Cir. 1974), on the basis of “the record” sent
to the Fifth Circuit by the Louisiana Supreme Court. In
Wilkes, Judge Wisdom stated, clearly and unequivocally,
as follows:
“Federal Courts must ‘determine for ourselves
the right to continue to be a member of... [the
federal] Bar’ after giving ‘intrinsic consideration’
of the underlying record to verify whether ‘one or
all of the following conditions ... appear:”'
then enumerating the Selling versus Radford exceptions
to the imposition of reciprocal discipline. 494 F. 2d at p.
476.
The following is what I determined from my own
review of “the record” from the Louisiana Supreme
Court:
NONE of my Exhibits in the State disciplinary
(1)
proceedings (Docket No. 10-PDB-006 before the '
Louisiana Attorney Disciplinary Board; Case No. 16 B
1848 before the Louisiana Supreme Court), namely 57
Exhibits in number, which were entered into evidence in
connection with the Kangaroo-Court “hearing” that I
was afforded on November 4, 2014, are included in “the
record.” In other words, my Exhibits are all “MISSING
IN ACTION.” This is a most significant omission,
because my Exhibits in the State disciplinary
proceedings were critical to my case and my Defenses to
the Formal Charges. See “Respondent Ashton
O’Dwyer’s List of Exhibits,” which is AROD EXHIBIT
NO. 19 in these proceedings, and my numerous

6a
references to many of my Exhibits in the State
proceedings in my written submissions to this Court and
during oral argument on December 4, 2018. My List of
Exhibits, AROD EXHIBIT NO. 19, groups my Exhibits
in the State proceedings into various Defense categories,
and describes each Exhibit and its relevance to my
Defenses to the Formal Charges. Without my Exhibits
from the State proceedings being contained in “the
record,” there is a gaping hole in my Defense.
I have in my possession a complete copy of each
(2)
of my Exhibits from the State proceedings. I can deliver
those Exhibits to the Clerk of the Fifth Circuit for the
Panel’s “In re Wilkes intrinsic review” in the event that
the Fifth Circuit is unable to obtain the Exhibits from
the Louisianan Supreme Court, which I aver is a very
distinct possibility. I await instructions from the Panel
in this regard.
What was represented to me as “the record” is
(3)
NOT the original record, but a Xerox copy, which
presents some problems, described infra.
Just as I suspected, “the record” DOES NOT
(4)
include any transcript of the oral argument hearing
before the Louisiana Supreme Court on January 24,
2017. This omission is an important one, because
“O’Dwyer Exhibits A and B” entered in evidence during
the hearing, WITHOUT OBJECTION, were signature
pages contrasting my signature with my cousins’
signature, clearly showing that “Exhibit DCAH No. 54”
was signed by my lawyer and cousin, Joseph W.P.
Hecker, now deceased, but a practicing lawyer at the
time, and NOT by me! The two Exhibits, which were
identified and introduced in evidence before the
Louisiana Supreme Court. “O’Dwyer Exhibits A and B”
are not contained in “the record,” either: Another
glaring OMISSION.

7a

Although the “paper record” documents within
“the record,” consisting of both paper filings and “hard
copies” of electronic filings, which were sent to the
Louisiana Attorney Disciplinary Board, to the Hearing
Committee Chair, to the Board Panel Chair, and to
Disciplinary Counsel Ad Hoc in the State proceedings,
during the course of the case, are chronologically
arranged in eleven (11) separate black cardboard
binders, it is virtually IMPOSSIBLE for anyone who is
unfamiliar with the case to decipher and understand.
None of the individual documents, some of which contain
multiple voluminous Exhibits, is TABBED. Although
the each document is, purportedly, “identified” in a
paper “Index” at the beginning of Volume 1 of the black
binders, the so-called “Index” is “bare-boned,”
describing documents by (for example) “Letter,”
“Correspondence” and “E-mail,” etc., without giving the
precise title of each document or by whom it was
submitted.
Yet another disconcerting feature of the 11
(6)
volume paper record is the fact that the Court Reporter
transcripts of Motion Hearings, Telephone Conferences,
and Hearings are contained in boxes SEPARATE from
the paper case record in 11 bound - volumes. The
transcripts that I looked at were not arranged in
chronological order. This entire situation was disruptive
of continuity during my review of “the record.”
The paper record should have a meaningful,
(7)
usable Index, containing the date of filing of each
document and a detailed description of each document
and of the Exhibits appended thereto. Even the “title”
of documents, such as: “Respondent’s Ashton O’Dwyer’s
Motion to Dismiss All ‘Formal Charges’ on Grounds of
Criminal Sociopathic Behavior, Abuse of Power,
Prosecutorial Misconduct, [and] Obstruction of Justice
(5)

8a
by Catherine D. Kimball, Charles B. Plattsmier, Jr., and
Other Corrupt Members of the Louisiana Attorney
Disciplinary System” and “October 8, 2014 Pre-Trial
Submissions by AROD,” would make more sense than
“Pleading” and Email,” which make no sense
whatsoever. And each document and Exhibit should be
tabbed for ease of reference. The Court Reporter
transcripts should also be included in the same “paper
record” volumes, arranged in chronological order, duly
dated, adequately described and tabbed.
To reiterate, “the record” is incomplete because
(8)
my Exhibits (57 in number) are MISSING and not
included in “the record.” Additionally, “the record” is
difficult, if not impossible, to decipher by someone who
lacks familiarity with the development of the case during
the past ten (10) years, UNLESS ONE HAS
SEVERAL DAYS TO COMPETENTLY REVIEW
“THE RECORD” by sitting down, and breaking down
boxes, binders, transcripts and documents, and placing
them in proper order, and then READING them.
As an aside, “the record” contained at least two
(9)
(2) copies of the Exhibits of Disciplinary Counsel Ad
Hoc; mine were nowhere to be found.
(10) Based on what I observed on the state of “the
record” received from the Louisiana Supreme Court at
the Fifth Circuit on November 28, 2018, I have NO
CONFIDENCE that the Louisiana Supreme Court did
anything other than “RUBBER STAMP” the KangarooCourt decisions of Hearing Committee 23 and Board
Panel “C” in my case, without any serious or substantial
consideration of my Defenses to the Formal Charges, to
which my Exhibits in the State proceedings - the
“missing” Exhibits - were critical: Yet “another” Selling
versus Radford denial of due process in the State
proceedings and exception to “reciprocal discipline.”

9a

(11) AND, I would not believe ANYTHING that
ANY representatives of the TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, which is
presided over by the “bought and paid for” Louisiana
Supreme Court, might have to say about “the record,”
without being subjected to cross-examination, under
oath, and even then “accepting” such testimony only if
accompanied by a TON of salt.
(12) Lastly, following oral argument on December 4,
2018,1 met briefly with Deputy Clerk Butler in order to
confirm that all 25 (now 26) of my Exhibits in these
proceedings were available for the Panel to review.
Deputy Clerk Butler assured me that she possessed a
complete set of my Exhibits in these proceedings.
Nevertheless, if each Panel Member requires his own
complete set (I will get the money for copying from
“somewhere”) for Staff review, I am “ready, willing and
able” to deliver additional copies of my Exhibits for each
' Panel Member. I await instructions in this regard.
Declared to be true and correct under penalty of
perjury pursuant to the provisions of 28 United States
Code, Section 1746, this 6th day of December, 2018.
ASHTON R. O’DWYER, JR.
Decarant
Respectfully submitted,
ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
AROD@Dwyerlaw.com

10a

This case was not selected for publication in West's
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1,2007. See also U.S.Ct. of App. 5th Cir.
Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
IN RE: Ashton Robert O'DWYER, Jr. Petitioner
No. 18-98009
Filed May 31,2019
Before COSTA, WILLETT,
Judges.

and DUNCAN,

Circuit

Opinion
PER CURIAM:*
This is a reciprocal discipline proceeding against
Ashton O’Dwyer. In 2017, the Supreme Court of
Louisiana permanently disbarred O’Dwyer. In re
O’Dwyer, 221 So. 3d 1 (La. 2017). Under the federal rule
governing attorney discipline in the court of appeals, “[a]
member of the court’s bar is subject to suspension or
disbarment by the court if the member has been
suspended or disbarred from practice in any other
court.” FED. R. APP. P. 46(b)(1)(A). So after the
Louisiana disbarment, our court ordered O’Dwyer to
show cause why he should not be removed from the list
of attorneys admitted to practice in this court. O’Dwyer
responded with voluminous submissions and requested
oral argument, which the panel heard in December.

11a
O’Dwyer seeks to relitigate his underlying
discipline in the United States District Court for the
Eastern District of Louisiana that led to his state
disbarment. 221 So. 3d at 19 (concluding that O’Dwyer
engaged in a “panoply of serious professional violations”
based on his conduct in New Orleans federal court). But
our task in considering reciprocal discipline is much more
limited. We do not review as an original matter the
allegations that resulted in disbarment. Instead, we
must give effect in our court to the state disbarment
unless “an intrinsic consideration” of the state court
record reveals that:
1. The state procedure, from want of notice or
opportunity to be heard, was wanting due
process.
2. [T]hat there was such an infirmity of proof as to
facts found to have established the want of fair
private and professional character as to give rise
to a clear conviction on our part that we could not,
consistently with our duty, accept as final the
conclusion on that subject, or
3. [T]hat some other grave reason existed which
should convince us that to allow the natural
consequences of the judgment to have effect
would conflict with the duty which rests upon us
not to disbar except upon the conviction that,
under the principles or right and justice, we were
constrained so to do.
Selling v. Radford, 243 U.S. 46,51,37 S.Ct. 377,61 L.Ed.
585 (1917); see also In re Jones, 275 F. App'x. 330, 331
(5th Cir. 2008) (applying the Selling factors). It is
O’Dwyer’s burden to establish one of these situations
that would prevent us from following the decision of

12a
Louisiana’s highest court. Id. (citing In re Caivo, 88 F.3d
962, 966 (11th Cir. 1996)).
We can readily dispose of the first basis for
nonreciprocity. The state court disciplinary proceeding
provided O’Dwyer with fulsome process. For three
years, the hearing committee considered numerous “prehearing
and
evidentiary
issues”
O’Dwyer
raised. O’Dwyer, 221 So. 3d at 10. At the eventual
hearing, O’Dwyer “introduced volumes of documentary
evidence,” called a witness (the testimony of other
witnesses was admitted by stipulation), and testified on
his own behalf. Id. The state disbarment proceeding
afforded O’Dwyer the process he was due.
That leaves the other two grounds for not
recognizing a state court disbarment. They consider the
merits, but only through a quite deferential
lens. See Selling, 243 U.S. at 51, 37 S.Ct. 377. Having
considered the record of the state proceeding, O’Dwyer’s
numerous responses to the show cause order, and his
oral argument, we conclude that the disbarment findings
do not suffer from the substantial infirmities needed for
us to decline to follow the same course the state court
took. The attacks O’Dwyer levels against the state court
findings at most argue for a different interpretation of
his conduct in New Orleans federal court; he cannot show
that the contrary view of the Supreme Court of
Louisiana—and the federal district court for that
matter—lacked evidence. To take just one example of
serious misconduct, there was strong support for the
finding that O’Dwyer engaged in the unauthorized
practice of law following his suspension from the Eastern
District of Louisiana. A motion was filed in an O’Dwyer
case under the signature of O’Dwyer’s cousin who was a
lawyer. What evidence supported the conclusion that
O’Dwyer wrote the brief and forged his cousin’s

13a
signature so it could be filed? One of the most powerful
types: a confession. O’Dwyer admitted in response to an
inquiry from state disciplinary counsel that he had
signed his cousin’s name to the filing. 221 So. 3d at 8. The
egregiousness of this conduct, occurring while O’Dwyer
was already subject to court discipline, speaks for itself.
And nothing in the stacks of paper submitted in this
matter undermines the state court’s conclusion that
O’Dwyer engaged in this unauthorized practice.1
IT IS ORDERED that Ashton O’Dwyer be removed
from the roll of attorneys admitted to practice as a
member of the bar of this court.
Footnotes
* Pursuant to 5th Cir. R. 47.5, the court has determined
that this opinion should not be published and is not
precedent except under the limited circumstances set
forth in 5th Cir. R. 47.5.4.
lAfter oral argument, O’Dwyer filed a motion seeking
access to the docket sheet for this matter. Per the typical
practice for attorney discipline matters, this court does
not maintain a “docket sheet.” So his motion is
DENIED. But to address O’Dwyer’s concern, each
member of the panel has electronic access to every filing
he has made in this case (there have been more than 80
since the Chief Judge assigned the matter to this panel
in September 2018).

14a

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent
RESPONDENT’S MOTION TO RE-OPEN CASE
AND TO SET ASIDE THE PANEL’S MAY 31,
2019 PER CURIAM OPINION1 IN ITS
ENTIRETY, DUE TO A PANEL MEMBER’S
FAILURE TO DISCLOSE CONFLICTS OF
INTERESTS
ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

1 And any other decisions or orders in this case in which Judge
Duncan or his Staff may have participated, directly or indirectly.

15a

MAY IT PLEASE THE COURT:
COMES NOW Respondent, Ashton R. O’Dwyer,
Jr., appearing in propria persona, and moves the Court
to set aside the Panel’s May 31, 2019 Per Curiam
Opinion2 in its entirety, and to assemble an unbiased,
unprejudiced, and fair and impartial Panel, which is
devoid of any taint and conflicts of interests, in order to
render decision in this case. Respondent avers that he is
entitled to relief that he is seeking by virtue of the
discovery of undisclosed conflicts of interests by Panel
Member Stuart Kyle Duncan who, for reasons that are
known only to Judge Duncan:
Failed to disclose to Respondent prior to
1)
participating in decisions in this case the
fact that between 2008 and 2012, he acted
as “Solicitor General of the State of
Louisiana,” while in the direct employ of
the Louisiana Department of Justice and
the Attorney General of Louisiana, and in
the capacity of “Appellate Chief’ of the
LDOJ, with all of the duties that those
titles entailed, including representing the
interests of the State, and State entities
and individuals, in Hurricane KATRINA
litigation, inter alia.
Failed to disclose to Respondent prior to
2)
participating in decisions in this case the
fact that he represented the State, and
State entities and individuals, in a plethora
of other cases involving issues inimical to
Respondent and his Hurricane KATRINA
clients, and involving co-counsel who were
2 And any other decisions or orders in this case in which Judge
Duncan or his Staff may have participated, directly or indirectly.

16a

directly opposed to Respondent and
wanted him disbarred.
3)
Failed to disclose to Respondent prior to
participating in decisions in this case the
fact that between 2012 and December
2017, he and/or his private law firm “signed
six different professional
services
contracts with the State of Louisiana
worth more than $843,000,” and calling for
the payment of an hourly billing rate to
Judge Duncan of approximately $385.00
per hour.3
4)
Failed to disqualify himself (i.e., he failed
to “self-recuse”) from participating as a
decision-maker in this case, after realizing
that his prior employment by the State of
Louisiana, the Louisiana Department of
Justice, and the Louisiana Attorney
General, and his representation of State
interests as a private attorney, coupled
with his knowledge of: a) the State’s
involvement in Respondent’s disbarment;
b) the State’s involvement in the
corruption of the “Victims of KATRINA”
litigation; and (c) the State’s involvement
in the events of September 20, 2005, all
rendered it impossible for him to render an
unbiased and fair and impartial decision in
this case.
Respondent avers that the setting aside of the
Panel’s Per Curiam Opinion of May 31,2019 by virtue of
Judge Duncan’s failure to disclose conflicts of interests is
3 Lamar White, Jr., The Bayou Brief, December 16, 2017, article
entitled: “Kyle Duncan, nominee for U.S. Fifth Circuit.”

17a

the result mandated by the decision of the Supreme
Court in the case of Commonwealth Coatings v.
Continental Cas., 393 U.S. 145 (1968). That decision
vacated an arbitral award where one of the arbitrators
failed to disclose prior “close business connections” and
a “business relationship” with a “repeated customer,”
who gave the arbitrator “repeated and significant”
patronage, but was party to the arbitration. A more
detailed discussion of Commonwealth Coatings follows,
infra.
Respondent further avers that by virtue of the
aforesaid conflicts of interests4 Judge Duncan should
have disqualified himself in this case (i.e., he should have
“self-recused”), which he also did not do. And by failing
to disclose his prior associations and relationships with
the State of Louisiana to Respondent, and by failing to
disqualify himself, Judge Duncan deprived Respondent
of the opportunity to seek Judge Duncan’s
disqualification and recusal5 and, therefore, violated the
following:
1.
Respondent’s absolute entitlement to
procedural and substantive due process of
law and the constitutional right under the
U.S. Constitution, and more particularly
under the 5th Amendment, to have his case
adjudicated by unbiased, unprejudiced and
fair and impartial arbiters of the facts and
4 The disqualifying associations and relationships, which Judge
Duncan should have disclosed, are set forth in greater detail in
“Respondent’s Declaration Under Penalty of Perjury,” filed
simultaneously herewith.
5 There was no reason for Respondent to do so absent knowledge of
Judge Duncan’s conflicts of interest by virtue of his prior
associations and relationships, which Judge Duncan failed to
disclose.

18a

2.

3.

the law, without Judge Duncan on the
Panel, since he was the exact opposite of
that to which Respondent was legally
entitled.
Canon 2 of the Code of Conduct for United
States Judges and the COMMENTARY
which follows, which requires respect for
and compliance with law so as to promote
public confidence in the integrity and
impartiality of the judiciary, and which
disallows political, financial or other
relationships to influence judicial conduct
or judgment, and which proscribes
impropriety and the appearance of
impropriety in all activities.
Canon 3 of the Code of Conduct for United
States Judges, which requires Judges to
perform the duties of office fairly,
impartially and diligently, without bias or
prejudice, and more particularly Canon
3(C)(1), which also imposes an affirmative
duty on Article III Judges to “disqualify
himself or herself in a proceeding in which
the judge’s impartiality might reasonably
be questioned,” such as this proceeding.
Which specific subparts to Canon 3 were
violated by Judge Duncan are better
known to him than to Respondent, but
Respondent avers violation of Canon
3(C)(1)(a) [personal bias]. Respondent
avers that it is also quite possible that
Judge Duncan violated Canon 3(C)(1)(b),
Canon 3(C)(1)(c) [financial interest in the
State’s solvency, or legal fees earned from
his law firm’s representation of the State,

19a

4.

5.

or other interest that could be affected
substantially by the outcome], ■ Canon
3(C)(l)(d)(i through iii) [party or acted as
lawyer or known interest that could be
affected substantially by the outcome],
Canon
3(C)(1)(e)
[governmental
employment as counsel or advisor, or
expressed an opinion], as well as Canon
3(D) [remittal of disqualification through
disclosure]. All such information is known
to Judge Duncan, but not to Respondent.
28 U.S.C. §455(b)(l) and (3), due to Judge
Duncan’s actual personal bias and
prejudice in favor of the State or against
Respondent, or both, and possibly having
knowledge of facts concerning the
proceeding or having served in
governmental employment as counsel or
adviser concerning the proceeding.
28 U.S.C. §455(a), which mirrors Canon
3(C)(1), and which requires disqualification
of
“[a]ny... judge...of
the
United
States...in any proceeding in which his
impartiality
might
reasonably
be
questioned,” such as this proceeding.

I. THE SUPREME COURT DECISION IN
COMMONWEALTH COATINGS MANDATES
THE SETTING ASIDE OF THE PANEL’S PER
CURIAM OPINION DUE TO JUDGE DUNCAN’S
FAILURE TO DISCLOSE CONFLICTS OF
INTERESTS
Respondent reiterates that the relief which he is
seeking, namely the setting aside of the Panel’s Per

20a
Curiam Opinion of May 31, 2019, and to assemble an
unbiased, unprejudiced, and fair and impartial Panel,
which is devoid of any taint and conflicts of interests, in
order to render decision in this case, is mandated by the
Supreme Court decision in the case of Commonwealth
Coatings v. Continental Cas., 393 U.S. 145 (1968) and its
progeny, including this Court’s decision in the case of
Positive Software Solutions, Inc. v. New Century
Mortgage Corporation, 476 F.3d 278 (5th Cir. 2007).
Here, like the Supreme Court did in
Commonwealth Coatings, which imposed “the simple
requirement that arbitrators disclose to the parties any
dealings that might create an impression of possible
bias” or risk “vacation of an award,” Judge Duncan’s
failure to disclose to Respondent his prior “direct,
extensive and substantial” associations and relationships
with the State of Louisiana, and with State entities,
cases and individuals, must result in the setting aside of
the Panel’s Per Curiam Opinion. In the words of Justice
Black, “We have no doubt that, if a litigant could show
that a foreman of a jury or a judge in a court of justice
had, unknown to the litigant, any such relationship.6 the
judgment would be subject to challenge.” (Emphasis
supplied.) Justice Black went on to say, “We can perceive
no way in which the effectiveness of the arbitration
process will be hampered by the simple requirement
that arbitrators disclose to the parties any dealings that
might create an impression of possible bias.” The same
should be true for Article III Judges in proceedings such
as this one where, to again quote Justice Black,

(i Footnote by Respondent. The term “any such relationship” used
by Justice Black meant “the undisclosed business relationship”
described in detail by Justice Black.

21a

“elementary requirements of impartiality [are] taken for
granted.”
Judge Duncan’s prior undisclosed associations
and relationships with the State, are set forth in great
detail7 in “Respondent’s Declaration Under Penalty of
Perjury” filed simultaneously herewith, and should be
equated with the undisclosed “close business
connections” between the Commonwealth Coatings
arbitrator and a “repeated customer,” who showered the
arbitrator with “repeated and significant” patronage,
but was a party to the arbitration. Even Justice White,
in his concurring opinion which has generated no small
amount of controversy, clearly stated, “But it is enough
for present purposes to hold, as the Court does, that
where the arbitrator has a substantial interest in a firm
which has done more than trivial business with a party,
that fact must be disclosed.”
Respondent submits that in no sense can Judge
Duncan’s
prior ' undisclosed
associations
and
relationships with the State be categorized as “trivial”
or “insubstantial.” To the contrary, the available
evidence shows that they were “direct, extensive and
substantial,” and that they stood the test of time,
commencing in 2008, when Judge Duncan went to work
for the State, enduring until ten (10) years later, when
Judge Duncan became a Federal Judge in May 2018.
In partial justification for vacating the arbitral
awarded in Commonwealth Coatings, Justice Black
cited “that part of the 33rd Canon of Judicial Ethics”
then-in-effect, which provided: “...[A judge] should,
however, in pending or prospective litigation before him,
7 But Respondent’s knowledge is admittedly limited, because Judge
Duncan failed to disclose his associations and relationships with" the
State and concealed them from Respondent.

22a

be careful to avoid such action as may reasonably tend to
awaken the suspicion that his social or business relations
or friendships constitute an element in influencing his
judicial conduct.” Justice Black then went on to say that,
“This rule of arbitration and this canon of judicial ethics
rest on the premise that any tribunal permitted by law
to try cases and controversies not only must be unbiased,
but also must avoid even the appearance of bias.” And
Respondent submits that no matter what ethical
“Standards of Behavior” may apply to arbitrators versus
Article III Judges, like Judge Duncan, particularly with
respect to the standard to be applied to “disclosure,” to
“disqualification,” or to both,8 Commonwealth Coatings
8 With respect to the very important distinction between an Article
III Judge’s duty to disclose conflicts of interests, as contrasted with
his duty to disqualify himself because of them, Judge Weiner’s
dissent in Positive Software (and with apologies to the majority) is
both enlightening and instructive:
“What must be emphasized is that Justice White did not
‘remark’ that the differences between the standards of
decorum applicable to judges and those to which arbitrators
are held has anything at all to do with the immutable
prerequisite that, before the parties sign off on a candidate
for arbitrator, they must have received from him an
unexpurgated disclosure of absolutely every past or
present relationship with the parties and their lawyers.
That the potential arbitrator himself might deems one or
more of such relationships to be so de minimis as not to
require its divulgence is irrelevant; such culling of
information by a candidate must never be allowed to seep
interstitially into the disclosure calculus. Justice White’s
remark that disqualification is not automatic for minor
business relationships is simply inapposite to the
requirement of full disclosure of every relationship, large
and small.”
Stated another way, Judge Weiner believed that although Article

23a

makes clear that Judge Duncan should be held to an
equal, or even higher, standard than arbitrators. Justice
Black made that clear when he said, “We have no doubt
that, if a litigant could show that...a judge in a court of
justice had, unknown to the litigant, any such
relationship [as the one existing between the party in
Commonwealth Coatings], the judgment would be
subject to challenge.” And in his concurring opinion,
Justice White said, “The Court does not decide today
that arbitrators are to be held to the standards of judicial
decorum of Article III Judges, or indeed of any judges,”
language which Respondent avers clearly indicates that
Justice White believed an Article III Judge like Judge
Duncan would be held to a higher standard than the
arbitrator, whose arbitral award the Commonwealth
Coatings Court vacated for non- disclosure.
This same subject (i.e., whether the applicable
disclosure standard may be more rigorous for
arbitrators versus Article III Judges) was addressed'by
Judge Reavley in his dissent in Positive Software
Solutions, where he interpreted Justice White’s plain
language in his Commonwealth Coatings concurring
opinion as follows:
“...even though Justice White ‘does not expressly
define the standard that should govern arbitrator
conduct. His opinion only makes it clear that... .
arbitrators will be governed by a standard less
than the standard governing judges.’ Elizabeth A.
Murphy, Note, Standards of Arbitrator
III Judges are held to a higher standard than arbitrators when the
issue of disqualification is involved, both arbitrators and Article III
Judges are required to disclose conflicts of interests, particularly
those which may constitute “a significant compromising
relationship,” as Judge Duncan’s did.

24a

Impartiality: How Impartial Must They Be?,
1996 J. DISP. RESOL. 463, 470.” (Emphasis
added.)
Respondent submits that the Article III Judge
involved in this case, like the arbitrator in
Commonwealth Coatings, should have disclosed to
Respondent his “substantial compromising relationship”
with the State, and that the setting aside of the Panel’s
Per Curiam Opinion must result from his failure to meet
the standard for disclosure applicable to Article III
Judges.
II. JUDGE DUNCAN’S UNDISCLOSED
“DIRECT EXTENSIVE AND SUBSTANTIAL”
RELATIONSHIPS ARE DISTINGUISHABLE
FROM THE POSITIVE SOFTWARE
RELATIONSHIPS WHICH
WERE “TRIVIAL” AND “INSUBSTANTIAL”
Although a majority of the En Banc Fifth Circuit
Court in Positive Software refused to vacate an arbitral
award in that case notwithstanding the non-disclosure
by an arbitrator of professional relationships between
the arbitrator and counsel for a party, Respondent
submits that when the majority opinion is analyzed
correctly, Positive Software actually supports the
setting aside of the Per Curiam Opinion in this case due
to Judge Duncan’s failure to disclose conflicts of
interests.
The Positive Software majority “previewed” how
they would rule by saying:
“The resulting standard [as a result of reading
Justice White’s Commonwealth Coatings

25a

concurring opinion ‘holistically’] is that in
nondisclosure cases, an award may not be vacated
because of a trivial or insubstantial prior
relationship between the arbitrator and the
parties to the proceeding.” (Emphasis added.)
And for all of the controversy that the majority opinion
and the dissents have generated, the actual holding of
Positive Software, which appears at the very end of the
opinion, is really quite limited:
“Neither the FAA nor the Supreme Court, nor
predominant case law, nor sound policy
countenances vacatur of FAA arbitral awards for
nondisclosure by an arbitrator unless it creates a
concrete, not speculative impression of bias.
Arbitration may have flaws, but this is not one of
them. The draconian remedy of vacatur is only
warranted upon nondisclosure that involves a
significant compromising relationship. This case
does not come close to meeting this standard.”
(Emphasis added.)
In no way did Positive Software “overrule”
Commonwealth Coatings, because it is axiomatic that a
Court of Appeals, like the Fifth Circuit, is incapable of
overruling a Supreme Court case. Respondent avers
that the two cases are distinguishable on the facts, just
like the facts surrounding Judge Duncan’s undisclosed
associations and relationships with the State are

26a

distinguishable from the “trivial or insubstantial” prior
relationships in Positive Software.9
More particularly, the information contained
herein, and in “Respondent’s Declaration Under Penalty
of Perjury” filed simultaneously herewith, demonstrate
that Judge Duncan had prior undisclosed associations
and relationships with the State of Louisiana, and with
State entities, cases and individuals, between 2008 and
the time of his assuming the Federal Bench in May
2018,10 which were “direct, extensive and substantial.”
And even after leaving the direct employ of the State in
2012, the State was “a regular customer” of Judge
Duncan and his law firm. Indeed, the previously cited
article in “The Bayou Brief’.by Journalist Lamar White
reflects that, while Judge Duncan was in private
practice, the State was one of his “best” clients, and
perhaps his “most financially lucrative” client.
Respondent has produced evidence that during the
entire time period spanning ten (10) years, from 2008 to
May 2018, Judge Duncan’s associations and relationships
with the State were “repeated and significant” and
resulted in “close business connections” and “significant
contact and business dealings,” giving rise to a
“significant compromising relationship that was not
“trivial,” “insubstantial” or “tangential, limited, and
1J Nor did the Positive Software majority have the power to strike
Justice White’s statement in his concurring opinion in
Commonwealth Coatings that:
“But it is enough for present purposes to hold, as the Court
does, that where the arbitrator has a substantial interest in
a firm which has done more than trivial business with a
party, that fact must be disclosed.”
10 And possibly continuing since that time, information known only
to Judge Duncan.

27a

stale,”11 thereby distinguishing this case from Positive
Software and requiring that the Per Curiam Opinion
should be set aside due to Judge Duncan’s non-disclosure
and failure to disqualify (i.e., “self-recuse”).
DID ACTUAL BIAS AND PREJUDICE
CONTRIBUTE TO JUDGE DUNCAN’S
FAILURE TO DISCLOSE HIS CONFLICTS OF
INTERESTS TO RESPONDENT?
Respondent simply does not know that which
“may be in Judge Duncan’s head.” The complete depth,
breadth and scope of Judge Duncan’s associations and
relationships with the State of Louisiana, and with State
entities, cases and individuals, since 2008 are known to
and can be attested to by Judge Duncan better than
anyone else. Nevertheless, it is evident that Judge
Duncan has, since 2008, dutifully served, as his “Lord
and Master,” the State of Louisiana, upon whose good
graces he was virtually totally dependent for his
livelihood until December 2018.
While Respondent concedes that much is still
unknown about Judge Duncan’s prior associations and
relationships with the State, (but the now-known ones
are set forth in about 35 separately-numbered
paragraphs in “Respondent’s Declaration Under
Penalty of Perjury” filed simultaneously herewith) it is
beyond question that they were “direct, extensive, and
substantial,” and all of the currently unknown “details”
were and are known to Judge Duncan, who concealed
them from Respondent and failed to disclose them.
H And possibly continuing since that time, information known only
to Judge Duncan.

28a
Judge Duncan knows what cases he handled and/or
supervised for the State, the names of those cases, the
identities of the parties, and the nature of the issues in
those cases. Judge Duncan knows what KATRINA
cases he handed or supervised, and the issues litigated,
other than the ones identified in Respondent’s
“Declaration.” He knows whether he had ever heard of
Respondent prior to this case, and whether he ever
discussed Respondent or any of his litigation or
disbarment proceedings with, colleagues within the
Louisiana Department of Justice, the Office of the
Attorney General or any other State entity, or with
anyone else. Judge Duncan also knows whether he might
harbor any bias or prejudice in favor of his former
employer and client, the State, or against Respondent,
even “unconscious bias.” And Judge Duncan knows why
he failed to make disclosure in this case, and why he
failed to disqualify himself. It even has been said that
“the most biased judges [are] the least willing to
withdraw.” See John Leubsdorf, Theories of Judging
and Judge Disqualification, 62 N.Y.U.L. Rev. 237, 245
(1987).
And Respondent avers that Judge Duncan’s
associations and relationships with the State, and with
State entities, cases and individuals, which Respondent
has identified herein and in his “Declaration,” were not
only “direct, extensive and substantial,” but they
constituted evidence of “a significant compromising
relationship” that was not “trivial” or “insubstantial,” or
“tangential, limited, and stale.” To the contrary,
Respondent avers that a “significant compromising
relationship” existed between Judge Duncan and the
State, as a result of the “close business connections” that
the Judge had with the State, and more particularly due
to their “prior significant contacts and business

29a
dealings,” with “repeated and significant” patronage
shown by a “regular customer.”
Respondent also avers that the fact that Judge
Duncan failed to disclose his associations and
relationships with the State gave rise to, in reasonable
minds, “a concrete, not speculative impression of bias.”
Why did Judge Duncan fail to disclose his conflicts
of interests with the State to Respondent? Why did he
not disqualify himself from participating in these
proceedings?
Lest there be any doubt, Respondent is alleging
actual bias and prejudice on Judge Duncan’s part based
on currently available evidence, which includes:
A.

The fact that Judge Duncan failed to make
proper disclosure to Respondent, and
concealed from Respondent his multiple
direct,
extensive
and
substantial
associations and relationships with the
State. In the words of Judge Weiner in his
Positive Software dissent, “But Shurn’s
very act of preemptively deciding, solely
on his own, that his relationship with
counsel for New Century need not be
disclosed and then withholding that
information conveys an unmistakable
appearance of impropriety.”

B.

The fact that the Panel of which Judge
Duncan was a member SEALED the
entire record in Respondent’s case, a
virtually unprecedented action which ran
directly contrary to the Fifth Circuit
Opinion recently authored by Panel
Member Judge Gregg Costa in the case of

30a

BP
Exploration
&
Production
Incorporated v. Claimant ID 10021,6928,
920 F.3d 209 (5th Cir. 2019).12
C.

The fact that the Panel of which Judge
Duncan was a member failed to address,
even in cursory fashion, any of
Respondent’s Affirmative Defenses to his
disbarment in the Federal or State
disciplinary
proceedings.
See
Respondent’s “Motion to Unseal the
Record” filed herein on August 30, 2019, a
copy of which is attached as Exhibit 1 to his
“Declaration Under Penalty of Perjury”
filed
simultaneously
herewith.
Respondent’s Motion to Unseal the Record
was summarily denied.

D.

The fact that the Panel of which Judge
Duncan was a member “lied on-therecord” in its Per Curiam Opinion, even
going so far as to falsely and maliciously
suggest that Respondent had committed
the crime of forgery, by forging his cousin’s
signature on a pleading, which was the
“linchpin” of the Panel’s (and the Louisiana
Attorney Disciplinary Board’s, as well as
the Louisiana Supreme Court’s) erroneous
conclusion that Respondent had engaged
in the unauthorized practice of law while
under suspension. See “Exhibit 1” to

12 Does the actual bias and prejudice run deeper than just Judge
Duncan? Respondent asks rhetorically, “What is the Panel hiding?
Who is the Panel protecting? What is the Panel covering up?”

31a
Respondent’s
“Declaration,”
namely
“Respondent’s Motion to Unseal the
Record,” paragraph nos. 19-28, pages 1518.

Respondent avers that each of the above and
foregoing factors clearly indicate “actual bias” in
violation of the Supreme Court’s assertion that due
process guarantees “an absence of actual bias” on the
part of a judge. In Re Murchinson, 349 U.S. 133, 136
(1955); Williams v. Pennsylvania, 136 S.Ct. 1899, 19051906 (2016) and cases cited therein. Indeed, because his
Panel improvidently sealed the record, failed to address
material issues, and made blatantly false statements,
Respondent avers that it is entirely plausible for
reasonable minds to conclude that something other than
“truth, justice and the American way” was at work in
'this case.
Respondent further avers that even if a
conclusion of actual bias may be “a bridge too far,” the
likelihood or the appearance of bias rose to an intolerable
and unconstitutional level in this case, Peters v. Kiff, 407
U.S. 493,502 (1972) “even if there is no showing of actual
bias in the tribunal,...due process is denied by
circumstances that create the likelihood or the
appearance of bias.” See also Caperton v. V.A.T. Massey
Coal Co., Inc., U.S. 868 (2009); Witnrow v. Larkin, 421
U.S. 35, 47 (1975). Both scenarios would violate Judge
Duncan’s written representation in his answer to a
Senator’s question following his Senate Judiciary
Committee hearing namely: “I would be required to
recuse myself ‘in any proceeding in which [my]
impartiality might reasonably be questioned’.” See

32a

Respondent’s “Declaration,” paragraph no. 25, as well as
Canon 3(C)(1) and 28 U.S. C. §455(a).
And because Judge Duncan’s associations and
relationships with the State commenced long before he
assumed his seat on the Fifth Circuit Bench, his bias and
prejudice, actual or likely (but reasonably presumed as
“plausible” under the circumstances), was “extra­
judicial.” Liteky v. United States, 510 U.S. 540 (1994).
CONCLUSION
The Supreme Court’s decision in Commonwealth
Coatings mandates that the Panel’s Per Curiam Opinion
should be set aside because of Judge Duncan’s failure to
disclose conflicts of interests to Respondent, namely
direct, extensive and substantial associations and
relationships with the State of Louisiana, which
disbarred Respondent and has been Respondent’s
“nemesis” since Hurricane KATRINA. This Court’s
decision in Positive Software is distinguishable on the
facts, but still supports the setting aside of the Per
Curiam Opinion since Judge Duncan’s undisclosed
associations and relationships constituted “a substantial
compromising relationship,” which even the Positive
Software majority said should be disclosed. Additionally,
Judge Duncan’s non-disclosure of those associations and
relationships gave rise to, in reasonable minds, “a
concrete, not speculative impression of bias.” The fact of
Judge Duncan’s non-disclosure, for whatever reason,
requires that the Per Curiam Opinion should now be set
aside in accordance with Commonwealth Coatings.
s/Ashton R. O’Dwyer. Jr.
ASHTON R. O’DWYER, JR.
Respondent
In propria persona

33a
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number:(504) 812-9185
arodjrlaw@aol.com

34a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent
RESPONDENT’S RULE 27(a)(2)(B)
DECLARATION UNDER PENALTY OF
PERJURY PURSUANT TO 28 U.S.C. §1746

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

35a

COMES NOW Respondent, Ashton R. O’Dwyer,
Jr., who declares, under penalty of perjury pursuant to
28. U.S.C. §1746, that the following factual information1
is true and correct, to the best of his recollection,
knowledge, information and belief:
1.
This case commenced with the Chief Judge’s
receipt of “an order of permanent disbarment” of
Respondent from the Louisiana Supreme Court, which
is the Judicial Branch of the Government of the State,
established by Article V, Section 1 of the Louisiana
Constitution of 1974.
2.

Although the Louisiana Supreme Court’s order of
permanent disbarment was dated March 15, 2017, the
State disciplinary proceedings against Respondent had
commenced eight (8) years earlier, in March 2009, when
the Supreme Court summarily suspended Respondent
from the practice of law without any notice,'much less a
hearing of any type.
After being summarily suspended from the
practice of law in March 2008, the State disciplinary
proceedings against Respondent were prosecuted in
quasi-criminal proceedings by the Office of Disciplinary
Counsel2 of the Louisiana Attorney Disciplinary Board.
However, the procedural steps between Respondent’s
3.

1 Specifically permitted by Rule 27(a)(2)(B)(ii) of the Federal Rules
of Appellate Procedure.
2 Respondent’s “prosecutor” was Mark Dumaine, an Assistant
District Attorney with the East Baton Rouge District Attorney’s
Office, who held the title “Disciplinary Counsel Ad Hoc,” allegedly
because the Disciplinary Counsel appointed by the Disciplinary
Board, but approved by the Supreme Court, had a conflict of
interests.

36a
being served with Formal Charges and actual
disbarment, all as enumerated in Louisiana Supreme
Court Rule XIX, took eight (8) years to complete.
Respondent was permanently disbarred by order of the
Supreme Court on March 15,2017.
4.
The Louisiana Attorney Disciplinary Board is a
“permanent statewide agency to administer the lawyer
discipline...system,” also being described as “a unitary
entity,” consisting of “a statewide board,” “hearing
committees,” “disciplinary counsel” and “staff.”
Louisiana Supreme Court Rule XIX, Sections 2,3 and 4.
Disciplinary Counsel, who is a full-time State employee,
is appointed by the Board with the approval of the
Supreme Court and has the mandate to “perform all
prosecutorial functions.” Louisiana Supreme Court Rule
XIX, Section 4.
Respondent has described his eight (8) year
5.
prosecution (actually a “persecution”) by the Louisiana
Attorney Disciplinary Board and the Office of
Disciplinary Counsel (through Disciplinary Counsel Ad
Hoc) as a “WAR” which constituted a “Reign of Terror”
unleashed against Respondent, which made his life “a
living hell.”
Respondent first learned of Panel Member Stuart
Kyle Duncan’s former employment by the State of
Louisiana in the Department of Justice and the Office of
the Attorney General on Thursday, September 10, 2020,
and that he immediately transmitted the following email
to Judge Duncan at the email address that is identified
under his name on the Louisiana State Bar Association
website. The email to Judge Duncan, which was
transmitted at 12:21 p.m. stated as follows:
6.

37a

To: kyle_duncan@ca5.uscourts.gov
Subject: Judge Duncan’s Participation in Fifth
Circuit Case No. 18-98009
Dear Sir: I have a few questions:
Why did you not disclose to me your prior
(1)
position as “Chief, Appellate Division” of the
Louisiana Department of Justice and Office of the
Louisiana Attorney General?
Why did you not “self-recuse” yourself in
(2)
my case, due to your conflict of interests and
inability to be unbiased, fair and impartial in
matters involving me?
Ashton O’Dwyer
No response to the email has been forthcoming
from Judge Duncan.
7.
Since September 10,2020, although his resources
are severely limited, Respondent has been able to
discover some very troubling “direct, extensive and
substantial” associations and relationships between
Judge Duncan and the State of Louisiana, and with State
entities, cases and individuals (see infra), which Judge
Duncan failed to disclose to him and, therefore,
concealed from him prior to Judge Duncan’s
participating in decision in this case on May 31, 2019.
8.
Although the State of Louisiana is not,
technically, a party to this case, Respondent avers that
the State, as well as many of its agencies,
instrumentalities and political subdivisions, and

38a
individual persons that they employ, have a material
interest in the outcome of this case.
9.
And Respondent avers that a far greater number
of State entities and individuals than the Louisiana
Supreme Court, the Louisiana Attorney Disciplinary
Board and the Office of Disciplinary Counsel have a
material interest in Respondent’s disbarment, and his
, professional and social embarrassment, humiliation and
disgrace, so that Respondent remains discredited and
marginalized, and so his allegations of PUBLIC
CORRUPTION will not be believed. See “Respondent’s
Rule 27.4 Certificate of Interested Persons and Entities”
filed simultaneously herewith, which identifies persons
and entities with whom Respondent has been adverse in
his post-KATRINA litigation, both as a party and as
counsel for parties, about 90% of which has been litigated
in the Fifth Circuit. Respondent avers that the said
persons and entities should be deemed parties for
purposes of his Motion.
10.
Notwithstanding the fact that Respondent has
very limited resources,3 and only limited knowledge of
Judge Duncan’s prior associations and relationships with
the State of Louisiana, which Judge Duncan failed to
disclose to Respondent, and concealed from him, and
which are better known to Judge Duncan than to anyone
else, Respondent has been able to discover some
3 Respondent’s resources are quite limited. He subsists on a meager
monthly Social Security check which is, and has been, his sole source
of income since late 2009. Prior to that, Respondent was suspended
from the practice of law by the Louisiana Supreme Court and unable
to earn a living. He was able to borrow certain funds prior to
qualifying for Social Security Benefits. All sums borrowed were
repaid to the lenders in Respondent’s bankruptcy proceedings.

39a
information by conducting free internet searches.
11.
As a result of these free searches, Respondent
determined that, prior to his participating in decisions in
this case, Judge Duncan, acted as “Solicitor General of
the State of Louisiana,” while in the direct employ of the
Louisiana Department of Justice and the Attorney
General of Louisiana, and in the capacity of “Appellate
Chief’ of the LDOJ, with all of the duties that those titles
entailed, including representing the interests of the
State, and State entities and individuals, in Hurricane
KATRINA litigation, inter alia.
12.
As a result of these free searches, Respondent
also determined that, prior to participating in decisions
in this case, Judge Duncan represented the State, and
State entities and individuals, in a plethora of other cases
involving issues inimical to Respondent and his
Hurricane KATRINA clients, and which involved co­
counsel who were directly opposed to Respondent and
wanted him disbarred.
13.
As a result of these free searches, Respondent
also determined that, prior to participating in decisions
in this case, Judge Duncan and/or his private law firm
had, between 2012 and December 2017, “signed six
different professional services contracts with the State
of Louisiana worth a grand total of more than $843,000,”
and calling for the payment of an hourly billing rate to
Judge Duncan of approximately $385.00 per hour.
14.
One of the most informative internet sources of
information about Judge Duncan and his associations
and relationships with the State is Journalist Lamar
White, Jr., of The Bavou Brief, and particularly a

40a
December 16, 2017 article by Mr. White entitled: “Kyle
Duncan, nominee for U.S. Fifth Circuit.” Page 9 of that
article provides the following information about Judge
Duncan that is not available elsewhere, more
particularly:
“During Jindal’s second term, however, Duncan
positioned himself as the administration’s favorite
mercenary lawyer, particularly on cases involving
cultural and religious issues. And it has been in
that position - as a D.C.-based attorney in private
practice, with Louisiana as a client - that he’s
become more well-known. It’s also earned him a
fortune, and it still does. Louisiana Attorney
General Jeff Landry continues to shower Duncan
with lucrative contracts.
In the past three and a half years, Duncan’s law
firm has signed six different professional services
contracts with the State of Louisiana, worth a
grand total of more than $843,000. You can almost
always make more money selling to the
government than working for the government.
Duncan bills the state $385 an hour. In September
2016, Duncan and his wife purchased a home in
McLean, Virginia, for $790,000, according to a real
estate database published by The Washington
Post.”
Parenthetically, in an abundance of caution, Respondent
spoke by telephone with Journalist Lamar White, Jr.,
who corroborated the accuracy of his reporting in the
referenced Bayou Brief article.
15.

According to Journalist Lamar White, Jr., Judge

41a
Duncan also had, among his other State titles, the title of
“Special Attorney General,” and as “Special Counsel” for
the State. Respondent avers that he is not “overstating”
the situation to aver that so direct, extensive and
substantial were Judge Duncan’s associations and
relationships with the State that he should be
categorized as a former “In-House Counsel” for the
State, or even “Of Counsel” for the State, in every piece
of litigation in which the State, or its agencies,
instrumentalities and political subdivisions, and
individual department heads, were parties, while Judge
Duncan was in the State’s direct employ between 2008
and 2012.
16.
Respondent refers to Judge Duncan’s own words
in the “Questionnaire for Judicial Nominees,” which
Judge Duncan submitted to the U.S. Senate Judiciary
Committee in connection with his nomination process
and ultimate confirmation for a seat on the U.S. Court of
Appeals for the Fifth Circuit. There, Judge Duncan
described the general character of his law practice, while
representing the State of Louisiana between 2008 and
2012 and thereafter as follows:
“In 2008,1 shifted back to appellate practice when
I was appointed the first Appellate Chief of the
Louisiana Department of Justice. In that role, I
fulfilled the functions of a state solicitor general,
advising the Attorney General on general legal
matters concerning appeals and taking the lead on
briefing and argument of selected appeals. From
2008 to 2012, I handled a variety of civil and
criminal constitutional matters, arguing cases in
the U.S. Fifth Circuit, the Louisiana Supreme
Court, and the Supreme Court of the United

42a
States.”
When asked on his “Questionnaire” to describe
“your typical clients and the areas at each period of your
legal career,” Judge Duncan responded as follows:
“The typical clients I have represented are state
government entities and officials; however, I have
also represented private persons and entities in
iitigation. I represented primarily commercial
entities during my first year of practice at Vinson
& Elkins, before switching to the exclusive
representation of Texas, its government entities
and officials as an Assistant Solicitor General. I
also exclusively represented Louisiana, its
government entities and officials during my time
as the Appellate Chief in the Louisiana
Department of Justice....Since starting my own
firm, I have had a mix of government and private
clients, but primarily government entities and
officials.”
17.
Respondent avers that while Judge Duncan was
directly employed by the State as Appellate Chief in
2008 and 2009, he was responsible, at the very least, for
supervising the Appeals of the State and State interests
in Respondent’s civil rights case, Case No. 08-30052 in
this Court. That litigation, which Respondent should
have won, hands down, was “tossed in the gutter” by the
Fifth Circuit on the basis of “qualified immunity,” which
should not have applied to State-employed GOONS who
trampled on Respondent’s clearly
established
constitutional rights. The proceedings in Respondent’s
civil rights case, both in the District Court and in the
Fifth Circuit, were tainted by judicial misconduct, as

43a
well as by professional misconduct by the lawyers
representing the State and State interests, misconduct
for which no one has ever been punished. In other words,
“the fix” was well and truly “in” in Respondent’s civil
rights case, the appeal of which was litigated during
Judge Duncan’s tenure as Appellate Chief of the
Louisiana Department of Justice. The Panel Opinion in
that case, No. 08-30052 - Reavley, Barksdale and Garza
- was dated February 19, 2009; the Opinion on
Rehearing was dated March 24, 2009. Judge Duncan’s
tenure as Appellate Chief of the Louisiana Department
of Justice during the pendency of the appeal in
Respondent’s civil rights case, and that fact alone, should
have required Judge Duncan’s disqualification and self­
recusal in this case, and at the very least full disclosure
by Judge Duncan to Respondent.
18.
Respondent avers that Judge Duncan identified
in his Senate “Questionnaire for Judicial Nominees” the
“In re Katrina Canal Breaches Litigation” among the
ten (10) “most significant litigation matters” which “you
personally handled” during his legal career. That
massive litigation was presided over by Judge Duval,
who Respondent has accused of PUBLIC
CORRUPTION,
and
played
prominently
in
Respondent’s disbarment. In the “In re Katrina Canal
Breaches Litigation,” Judge Duncan represented the
State and State entities and individuals, all ADVERSE
to Respondent and his 2,000 or so Katrina clients. See
645 F.3d 703 (5th Cir. 2011) for one example of Judge
Duncan’s representation of the State, et al., in that
litigation. The In re Katrina Canal Breaches Litigation
also involved “the Plaintiffs’ Lawyer Cabal,” which was
not only ADVERSE to Respondent, but actively
campaigned for his disbarment. See “Watershed

44a
Moment Nos. 2 and 4” in “AROD Exhibit No. 21” in this
case. See also Civil Action No. 08-4728 on the Eastern
District docket, which is “AROD Exhibit No. 6” in this
case.
19.
Respondent avers that Judge Duncan’s
representation of State entities, etc., in Union Pacific
R.R. v. Louisiana Pub. Serv. Comm’n, 662 F.3d 336 (5th
Cir. 2011), appears to have put him at odds with
Respondent on an issue that was “front and center” in
the KATRINA litigation, namely whether the voluntary
invocation of the jurisdiction of the Federal Court by
private attorneys representing the State, et al., on
August 29,2007, in four (4) separate civil actions, one of
which claimed $400 billion in KATRINA damages for the
State from the United States, constituted a WAIVER of
the state’s immunity from being required to litigate
claims against it in Federal Court. Compare Union
Pacific R.R. Co., supra, with Meyers ex rel. Benzing v.
Texas, 410 F.3d 236 (5th Cir. 2005), which held that a
State’s voluntary removal of a case to Federal Court
constituted a waiver of 11th Amendment immunity. In
reaching that decision, the Fifth Circuit noted that this
“voluntary invocation principle” should apply “generally
in all cases,” 410 F.3d at p. 249, which appears contrary
to Judge Duncan’s position in Union Pacific.
Respondent’s 11th Amendment waiver arguments
resulted in his being accused of “asserting frivolous
claims,” and contributed to his disbarment. The
“asserting frivolous claims” mantra, which was false,
was advocated by Judge Duval and his cronies in “the
Plaintiffs’ Lawyer Cabal” to attempt to hide their
conflict of interests by virtue of representing the State
“in secret,” while being simultaneously obligated
professionally to “the Class.”

45a
20.
Respondent does not have to be hit across the face
with a 2x4 to conclude that Judge Duncan, a former State
lawyer, Appeals Chief, Solicitor General, Special
Attorney General, and Special Counsel for the State, not
to mention “a very well-compensated-lawyer-for-theState-in- private-practice,” would have been more than
satisfied that Respondent should remain permanently
disbarred and unable to practice law and, therefore,
unable to urge that Benzing and its progeny should have
controlled in the KATRINA litigation on 11th
Amendment immunity issues in the KATRINA
litigation. A determination that the State had waived
11th Amendment immunity could have had dire financial
consequences for the very same “Lord and Master” that
Judge Duncan had dutifully served so well for the ten
(10) years between going to work for the State in 2008
and assuming the Federal bench in May 2018.
21.
Respondent avers that it appears that Judge
Duncan was co-counsel for the State, and State entities
and individuals, with other State lawyers who were
DIRECTLY ADVERSE to Respondent in this case and
in other litigation involving Respondent, as well. More
particularly, it appears that Judge Duncan was co­
counsel with “Hillar C. Moore,” the District Attorney for
East Baton Rouge Parish, whose office, through one of
Mr. Moore’s own employee’s, Assistant District
Attorney “Mark Dumaine,” was “Disciplinary Counsel
Ad Hoc” in Respondent’s State disciplinary proceedings,
which spawned this case. Also on the pleadings with
Judge Duncan and Mr. Moore was another District
Attorney for East Baton Rouge Parish, Dylan C. Alge,
yet another colleague of Mr. Dumaine. See Montgomery
v. State of Louisiana, Case No. 14-280 in the Supreme

46a
Court of the United States in 2015, while Respondent’s
disciplinary case was still pending and Mr. Moore’s
Assistant D.A., Mark Dumaine, was fighting
Respondent “tooth and nail,” and not only “prosecuting”
him, but “persecuting” him. Mr. Moore and his minions
also refused to investigate, much less prosecute, the civil
rights violations and other crimes that were committed
against Respondent on September 20, 2005, by multiple
State-employed conspirators whose plans were hatched
in East Baton Rouge Parish, within Mr. Moore’s
jurisdiction.
22.

Respondent avers that it also appears that Judge
Duncan in 2014 (and perhaps at other times) appeared as
co-counsel for State interests in Forum for Equality
Louisiana Inc. v. Barfield, 2014 cv 00327 (E.D. La.) with
another State lawyer who worked in the Civil Litigation
Division of the Louisiana Department of Justice. That
State lawyer was “Phyllis Esther Glazer,” who served as
counsel for the State interests in Respondent’s' civil
rights litigation, Case No. 08-30052 in this Court, arising
out of the events of September 20, 2005. To say that Ms.
Glazer had an adversarial relationship with Respondent
would be “putting it mildly.” Indeed, Ms. Glazer’s
Supervisor within the Louisiana Department of Justice
was “Paul B. Deal” who, referring to Respondent’s false
imprisonment at Camp Amtrak in September 2005, told
Respondent, “You’re lucky you didn’t have a broomstick
shoved up your ass,” an obvious reference to the Abner
Loumia case. Ms. Glazer and other lawyers for State
interests in Respondent’s civil lights litigation
repeatedly lied on the record and committed “fraud upon
the Court,” for which no one has been punished.
23.

Respondent once again refers to Judge Duncan’s

47a

Senate Judiciary Committee “questionnaire,” and more
particularly part 24, which addressed “Potential
Conflicts of Interest.” In Judge Duncan’s own words he
said:
“If confirmed, I will recuse in any litigation where
I have ever played a role. For a period of time, I
anticipate recusing in all cases where my current
firm, Schaerr Duncan LLP, represents a party I
will evaluate any other real or potential conflict,
or relationship that could give rise to appearance
of conflict, on a case by case basis and determine
appropriate action with the advice of parties and
their counsel including recusal where necessary.”
(Emphasis supplied.)
Respondent avers that Judge Duncan’s promise to
“determine appropriate action with the advice of parties
and their counsel including recusal where necessary”
meant that he KNEW that “disclosure” of “potential
conflicts of interest” would be necessary in some cases.
How else could he “determine appropriate action with
the advice of parties and their counsel?”
Yet, he made no disclosure in Case No. 18-98009.
24.
When asked to explain how he would “resolve”
potential conflicts of interest, Judge Duncan stated in his
Senate Judiciary Committee “questionnaire” as follows:
“If confirmed, I will carefully review and address
any real or potential conflicts by reference to 28
U.S.C. §455, Canon 3 of the Code of Conduct for
United States Judges, and any and all other laws,
rules,
and
practices
governing
such
circumstances.”

48a
25.
In separate “questionnaires” that were submitted
to him, in writing, by Senators following his confirmation
hearing, Judge Duncan answered the following
questions as follows:
“10.

As both a former solicitor general and in
private practice, you have represented the
State of Louisiana. Those representations
include writing an amicus brief for the
state in Obergefell; defending Louisiana’s
same-sex marriage ban before the Fifth
Circuit; defending the state’s restrictive
abortion law in June Medical Services v.
Gee; and representing the state before the
Supreme Court in Montgomery v.
Louisiana.
a.
If confirmed, do you agree there are
circumstances under which it may
be appropriate to recuse yourself
from cases in which the State of
Louisiana is a party?
Yes. If confirmed I would follow the
Code of Conduct for United States
Judges; the Ethics Reform Act of
1989, 28 U.S.C. §455; and all other
relevant
recusal
rules
and
guidelines. Pursuant to those rules,
I would be required to recuse
myself “[w]here in private practice
[I] served as lawyer in the matter in
controversy, or a lawyer with whom
[I] previously practiced law served
in such association as a lawyer
concerning the matter[.]” 28 U.S.C.

49a
§455(b)(2). Furthermore. I would be
required to recuse myself “in any
proceeding
m
which
Imyl
impartiality might reasonably be
questioned.” Id. §455(a). As a
former lawyer for the State of
Louisiana in both government and
private practice. I anticipate that
there may be cases in which I would
be required to recuse myself, and I
would do so. (Emphasis added.)
b.

Do you commit to following all
applicable judicial ethics rules in
determining whether to recuse
yourself in cases where former
clients are parties?

Yes.

(Emphasis supplied.)

Note that Judge Duncan committed himself in writing to
the Senate to recuse himself “in any proceeding in which
[my] impartiality might reasonably be questioned.” Why
Judge Duncan failed to Disclose his prior associations
and relationships with the State to Respondent is
unknown. Why he failed to disqualify himself (or “selfrecuse”) in this case, which is clearly one in which his
“impartiality might be questioned,” given his prior
associations and relationships, is unknown.
Another Senator then posed the following to
Judge Duncan:
26.

“You also commit to recusing yourself from all
cases where your firm represents a party for a

)

50a
“period of time.”
When you say you’ll recuse yourself from cases
where your firm “represents a part,” does that
include amici?
Yes.
How long is this period of time for which you
would recuse yourself from cases involving your
firm, if you are confirmed?
I have not decided on a specific period of time. If
confirmed, I would consult with my colleagues
and any other resources available to Fifth Circuit
judges about the typical recusal practices for
lawyers taking the bench from private practice.
In all events, I would faithfully follow the
requirements of the Code of Conduct for United
States Judges; the Ethics Reform Act of 1989, 28
U.S.C. §455; and any other relevant recusal rules
and guidelines.” (Emphasis supplied.)
Judge Duncan was confirmed by the Senate in May 2018.
Oral argument in this case took place about six (6)
months later, on December 4, 2018. The Panel’s Per
Curiam Opinion, which Respondent now seeks to set
aside, was issued on May 31,2019, which was within one
(1) year of Judge Duncan’s confirmation. Respondent
does not know whether, during that one (1) year period,
Judge Duncan’s former firm represented the State of
Louisiana or any of its agencies, instrumentalities or
political subdivisions, or any state officials, but
Respondent would like an answer to that question, which
only Judge Duncan can answer. And although

51a
Respondent does not know the answer, Judge Duncan
can tell us whether, since he became a Federal Judge, he
has received any financial benefit from his former firm
by virtue of the firm’s representation of the State, et al.,
in cases that remained open and active after he departed
the firm. Judge Duncan also can tell us whether, if the
State went bankrupt as a result of issues in the
KATRINA litigation, he would have suffered any
financial ramifications.
27.
Respondent avers that if disclosure, as well as
disqualification and self-recusal, was not done by Judge
Duncan in Respondent’s case, then it probably was not
done by Judge Duncan in ANY case. Respondent asks
rhetorically:
Has Judge Duncan EVER disclosed to the parties
or counsel his prior associations and relationships
with the State, in ANY case?
Has he ever disqualified himself or been recused
in any case involving the State of Louisiana or any
of its agencies, instrumentalities and political
subdivisions, or State officials?
If so, what were the circumstances, case names
and issues?
Respondent reiterates that he simply does not
28.
know that which “may be in Judge Duncan’s head.” The
complete depth, breadth and scope of Judge Duncan’s
associations and relationships with the State of
Louisiana, and with State entities, cases and individuals,
since 2008 are known to and can be attested only to by
Judge Duncan. But Respondent avers that is evident

52a
that Judge Duncan has dutifully served, as his “Lord and
Master,” the State of Louisiana, upon whose good graces
he was virtually totally dependent for his livelihood
between 2008 and May 2018.
29.
While Respondent concedes that much is still
unknown about Judge Duncan’s prior associations and
relationships with the State, it is beyond question that
they were “direct, extensive, and substantial,” and all of
the currently unknown “details” were and are known to
Judge Duncan, who concealed them from Respondent
and failed to disclose them. Judge Duncan knows what
cases he handled and/or supervised for the State, the
names of those cases, the identities of the parties, and
the nature of the issues in those cases. Judge Duncan
knows what KATRINA cases he handed or supervised,
and the issues litigated, other than the ones identified,
supra. He knows whether he had ever heard of
Respondent prior to this case, and whether he ever
discussed Respondent or any of his litigation or
disbarment proceedings with colleagues within the
Louisiana Department of Justice, the Office of the
Attorney General or any other State entity, or with
anyone else. Judge Duncan also knows whether he might
harbor any bias or prejudice in favor of his former
employer and client, the State, or against Respondent,
even “unconscious bias,” and Judge Duncan knows why
he failed to make disclosure in this case, and why he
failed to disqualify himself.
30.
Respondent also avers that the non-disclosed
associations and relationships with the State, and still
unknown “details,” in addition to those that Respondent
identified herein, constituted conflicts of interests, which
Judge Duncan should have disclosed.

53a
31.
And Respondent avers that Judge Duncan’s
associations and relationships with the State, and with
State entities, cases and individuals, which Respondent
has identified herein, were not only “direct, extensive
and substantial,” but they constituted evidence of “a
significant compromising relationship” that was not
“trivial” or “insubstantial,” or “tangential, limited, and
stale.” To the contrary, Respondent avers that a
“significant compromising relationship” existed between
Judge Duncan and the State as a result of the “close
business connections” that the Judge had with the State,
and more particularly due to their “prior significant
contacts and business dealings,” with “repeated and
significant” patronage shown by a “regular customer.”
Respondent also avers that the fact that Judge
Duncan failed to disclose his associations and
relationships with the State gave rise to, in reasonable
minds, “a concrete, not speculative impression of bias.”
32.
Respondent avers that all Judge Duncan had to
do, and what he should have done upon being designated
as a member of the Panel to adjudicate this case, was to
immediately inform Respondent: “For your information,
several years ago I worked as Appeals Chief for the
Louisiana Department of Justice and the Louisiana
Attorney General for about five (5) years; and before
assuming the Federal Bench about a year ago, I
routinely represented the interests of the State, my best
and most lucrative client in private practice after leaving
the State’s direct employ.” Given Respondent’s
“history” with the State, and with State entities, cases
and individuals, during the past 15 years, particularly
with the Louisiana Department of “Injustice,” and with
the Louisiana Attorney General’s Office, this probably

54a

would have informed Respondent of “all he needed to
know,” and would have resulted in a serious attempt by
Respondent to force Judge Duncan’s disqualification and
recusal (assuming that Judge Duncan did not “selfrecuse” himself first), just as Respondent attempted in
the KATRINA litigation with respect to Judges Duval
and Lemelle, and several times in the State disciplinary
proceedings, directed at State entities and individuals
who had conflicts of interests, including the Louisiana
Supreme Court. See Respondent’s Recusal Motions
among the 57 Exhibits in the State disciplinary
proceedings, which are unfortunately “missing-inaction.” See infra.
Respondent avers that Judge Duncan had many
opportunities to disclose his conflicts of interests to
Respondent, none of which he took advantage of. More
particularly, Judge Duncan could have made his
disclosures after he had familiarized himself with
Respondent’s written submissions in this case. And even
if Judge Duncan had read nothing prior to hearing oral
argument on December 4,2018, he would have been fully
informed about Respondent’s on-going WAR with his
“nemesis,” the State, from what he heard during oral
argument. Indeed, the courtroom was “full of law clerks”
for oral argument, at least some of whom had to be Judge
Duncan’s clerks. But no disclosure was made to
Respondent by Judge Duncan during oral argument or
thereafter, although Judge Duncan had ample
opportunity to do so. In addition, Respondent was
granted leave to file a post-hearing written submission
on December 7, 2018,4 which, inter alia, addressed (1)
33.

4 And more particularly “Respondent’s Court-Authorized (by Judge
Costa) Post-Hearing Written Submission” filed herein on December

55u

Respondent’s desire for the appointment of “one or more
proper, unbiased and unprejudiced investigators, and
with a proper, thorough and fully transparent
investigation” to properly investigate the PUBLIC
CORRUPTION that Respondent had exposed, and (2)
the fact that Respondent’s 57 Exhibits from the State
disciplinary proceedings, which were vital to
Respondent’s Defenses to his disbarment by the
Louisiana Supreme Court, were “missing in action,” and
were not included in the record which Respondent’s
Fifth Circuit Panel was duty- bound to give “intrinsic
consideration” to. No disclosure by Judge Duncan
followed the filing of that pleading by Respondent,
either. The Panel issued its Per Curiam Opinion, which
Respondent seeks to set aside, on May 31, 2019, with no
disclosure by Judge Duncan whatsoever.
34.
Respondent is alleging actual bias and prejudice
on Judge Duncan’s 'part based on a review of the
currently available evidence, which includes:
A.

The fact that Judge Duncan failed to make
proper disclosure to Respondent, and
concealed from Respondent his multiple
direct,
extensive
and
substantial
associations and relationships with the
State that constituted conflicts of
interests.

B.

The fact that the Panel of which Judge
Duncan was a member SEALED the
entire record in this case, a virtually

7, 2018 which, like everything else in this case, remains under
SEAL.

56a
unprecedented action which ran directly
contrary to the Fifth Circuit Opinion
recently authored by Panel Member Judge
Gregg Costa in the case of BP Exploration
& Production Incorporated v. Claimant
ID 10021^6928, 920 F.3d 209 (5th Cir. 2019).
C.

The fact that the Panel of which Judge
Duncan was a member failed to address,
even in cursory fashion, any of
Respondent’s Affirmative Defenses to his
disbarment in the Federal or State
See
disciplinary
proceedings.
Respondent’s “Motion to Unseal the
Record” filed herein on August 30, 2019, a
copy of which is attached as Exhibit 1 to
this “Declaration.” Respondent’s Motion to
Unseal the Record was summarily denied.

D.

The fact that the Panel of which Judge
Duncan was a member “lied on-therecord” in its Per Curiam Opinion, even
going so far as to falsely and maliciously
suggest that Respondent had committed
the crime of forgery, by forging his cousin’s
signature on a pleading, which was the
“linchpin” of the Panel’s (and the Louisiana
Attorney Disciplinary Board’s, as well as
the Louisiana Supreme Court’s) erroneous
conclusion that Respondent had engaged
in the unauthorized practice of law while
under suspension. See “Exhibit 1” to this
“Declaration,” namely “Respondent’s
Motion to Unseal the Record,” paragraph
nos. 19-23, pages 15-18.

57a.
35.
And Respondent avers that even if the above and
foregoing errors and omissions by Judge Duncan (and
others) do not support the conclusion of actual bias and
prejudice on the part of Judge Duncan, they certainly
result in the conclusion that this proceeding is one in
which Judge Duncan’s “impartiality might reasonably be
questioned,” with Judge Duncan’s failure (a) to disclose
his conflicts of interests and (b) disqualify himself
violating the Code of Conduct for United States Judges
and Federal statutes. Alternatively, Respondent avers
that the undisclosed associations and relationships with
the State, including those identified herein, gave rise to
“an unmistakable appearance of impropriety.”
Further Declarant sayeth naught at New Orleans,
Louisiana, this 16th day of November, 2020.
s/Ashton R. O’Dwver. Jr/
ASHTON R. O’DWYER, JR.

58a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent

RESPONDENT'S MOTION TO UNSEAL THE
RECORD

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

59a
RESPONDENT’S MOTION TO UNSEAL THE
RECORD
COMES NOW Respondent, Ashton Robert
O’Dwyer, Jr., (hereinafter “AROD”), and moves the
Court to unseal the record in the above-styled and
numbered cause and for all attendant relief, such as the
inclusion of each filed document in the record, properly
described with the date and time of filing, and recorded
in a Docket Sheet, which is available to the public via
Pacer. This Motion is filed upon the grounds that there
exists a strong presumption of public access to the
Court’s records, which has not been rebutted by anyone
or by anything in this case. More to the point, the
unprecedented sealing of the entire record in this case,
at a time unknown, by a person or persons unknown, for
reasons unknown, was and is entirely unjustified, and
fails to meet the U.S. Supreme Court’s “standards for
sealing” enumerated in Nixon v. Warner Commc’ns,
Inc., 435 U.S. 589, 598 (1978), and in Fifth Circuit
authorities. In addition, AROD avers that the unsealing
of the record in this case is mandated by the common law
and by the First Amendment to the U.S. Constitution,
as well as by the applicable jurisprudence, including
particularly, but without limitation BP Exploration &
Production, Incorporated versus Claimant ID
10021.6928, No. 18-30375 (5th Cir. March 29, 2019) and
United States of America v. Holy Land Foundation for
Relief and Development, 624 F.3d 685 (5th Cir. 2010) and
authorities cited therein. Additional grounds for the
unsealing of the record, and for all attendant relief,
follow.
BACKGROUND INFORMATION

60a

AROD was first informed of the sealing of the
record in this case on Monday, February 4, 2019, when
he was informed by Case Manager Allison Lopez (in
response to AROD’s perfectly reasonable, and very
simple, request to access the docket sheet in his own
case) as follows:
“I thought I could help, but unfortunately, I can’t
send you the docket in this case. There is no
‘public’ version of the docket as this type of
matter proceeds under seal. Which also means, it
will not be accessible at our public terminal.”
See AROD’s Motion filed in these proceedings on
February 22, 2019, and the email exchange with Case
Manager Lopez of February 4,2019, which was attached
to AROD’s Motion.
In his Motion Filed on February 22, 2018, AROD
repeatedly inquired about who ordered that the case *
record be placed “under seal” and for what reason(s), all
to no avail.1
AROD’s Motion was not ruled on until AROD
received the Panel’s three-page Per Curiam Opinion of
May 31, 2019 when, without citation to any legal
authority, the Per Curiam Panel wrote in a footnote:
“Per the typical practice for attorney discipline
matters, this Court does not maintain a ‘docket
sheet’. So his Motion is DENIED.”
Note that the Panel recited a bold-faced LIE: “Per the
typical practice for attorney discipline matters,” which
3 Because the record in this case is sealed, AROD cannot refer to a
“Record Document Number.”

61a

the Panel knew to be false, creating the erroneous
impression that, together with the “no docket sheet”
LIE, the sealing of the entire case record was somehow
also “typical” and, therefore, justified.2
Indeed, in the three-page Per Curiam Opinion,
the Panel cited no law, other than Selling v. Radford, 243
U.S. 46 (1917), and its progeny, which the Panel woefully
failed to apply correctly and also misapplied. See infra.
AROD avers that the applicable law mandates
the unsealing of the record.
THE APPLICABLE LAW
AND ARGUMENT
AROD only learned that the entire record in this
case had been placed “under seal” at a time unknown, by
a person or persons unknown, for reasons unknown,
during an email exchange with Case Manager Allison
Lopez on February 4, 2019. AROD’s efforts to identify
who ordered that the record be sealed, and why, have all
been in vain.
The posture of the sealing of the entire record is
“unusual,” to say the least. Generally, the sealing of a
record, or portions of a record, is requested by one or
more parties, who ask a District Court for an order to
seal, which must be justified. Such sealing orders may
then be reviewed by an Appellate Court pursuant to “an
abuse of discretion” standard Sec. v. Van Waeyenberghe,
990 F.2d 845 (5th Cir. 1993); Jidie Brown v. Ghislaine
Maxwell, Case No. 18-2868-CV (2d Cir., July 3, 2019),

2 In his Motion filed on February 22, 2019, AROD, fully briefed why
sealing the record in his case was not supported by any applicable
rules.

62a
Record Document No. 213-1, page 11 (and authorities
cited therein).
In the case at bar, however, a person or persons
unknown3, for reasons unknown, on a date unknown,
sealed the entire record in this case, apparently on a sua
sponte basis4. Notwithstanding the unusual, one might
even say “unprecedented,” action in this case, AROD
avers that the applicable law mandates unsealing the
record.
The right of public access to court records, and
more particularly to “what goes on” inside the
Courtroom, was recently addressed by Panel Member
Judge Greg Costa in BP Exploration & Production,
Incorporated' v. Claimant ID 1002^6928, No. 18-30375
(5th Cir., March 29, 2019), in a case that addressed
sealing the Courtroom for oral argument on the claims
by the Tampa Bay Buccaneers against BP, arising out of
the Deepwater Horizon Oil Spill, as follows:
“Claimant ID 100246928 - a/k/a the Tampa Bay
Buccaneers - asks this court to seal the courtroom
where the team will argue its appeal on April 1. It
also wants to bar public access to the recording of
the argument that this court routinely makes
available on its website. The team’s motion is
DENIED.
Until recently, this court filed Deepwater Horizon
appeals under seal when they were first docketed.
Even under that sealing order, however, the
court ultimately unsealed many cases and the
3 It is not even known if that person was a member of AROD’s Panel.
4 AROD, the only “party,” certainly did not ask that, the record be
sealed.

63 a
vast majority of appeals were argued in a public
courtroom. Reflecting this determination that
most BP cases did not warrant full sealing, an en
banc order issued last month vacating the court’s
prior sealing order. As is the situation for other
cases, parties in Deepwater Horizon cases must
now justify sealing. The default is public assess.
After that order issued, the Buccaneers
succeeded in keeping the record and briefs sealed
based on its concerns that the amount of revenue
it receives from the NFL - a focus of this appeal
- is proprietary.
But its request to seal the courtroom goes too far
- by a longshot. “The right to public access ‘serves
to promote trustworthiness of the judicial
process, to curb judicial abuses, and to provide
the public with a more complete understanding of
the judicial system, including a better perception
of its fairness. United States v. Holy Land
Found, for Relief & Dev., 624 F.3d 685, 690 (5th
Cir. 2010) (quoting Littlejohn v. BIC Corp., 851
F.2d 673, 682 (3d Cir. 1988)). Public confidence in
the courts is the issue: How can the public know
that courts are deciding cases fairly and
impartially if it doesn’t know what is being
decided? In re Hearst Newspapers, L.L.C., 641
F.3d 168,179 (5th Cir. 2011) (discussing the need
for “openness” of court proceedings in the
criminal context); In re High Sulfur Content
Gasoline Prods. Liab. Litig., 517 F.3d 220, 230
(5th Cir. 2008) (noting same interest for
attorney’s fee dispute in civil case). Sealing a
record undermines that interest, but shutting the
courthouse door poses an even greater threat to

64a
public confidence in the justice system. “Open
trials assure the public that procedural rights are
respected, and that justice is afforded equally.
Closed trials breed suspicion of prejudice and
arbitrariness, which in turn spawns disrespect for
law.” Richmond Newspapers, Inc. v. Virginia,
448 U.S. 555,595 (1980) (Brennan, J., concurring).
The team cites three reasons it believes override
this strong interest in transparency. None of
them comes close to doing so.
It first says that the briefs discuss confidential
financial data, which would “likely” come up at
oral argument. But that type of proprietary
information is present in all these BP cases - a
claimant has to submit profit and loss statements
to get paid. Yet lawyers have argued these cases
in open court multiple times during recent
argument weeks without disclosing confidential
revenue amounts. The judges have the data at
their fingertips, so there is no need for a lawyer
to mention the actual numbers.
Next the team contends that keeping the
courtroom open would “gratify [BP’s] private
spite,” “promote public scandal,” and “harm [the
team’s] competitive standing.” See Nixon v.
Warner Commc’ns, Inc., 435 U.S. 589, 598 (1978)
(noting these potential interests in judicial
secrecy). It recites an aside from BP’s brief
stating that the public would be “surprised to
learn that a professional football team has claimed
spill-related losses.” Maybe so. But public
“surprise” at a football team’s seeking money

65a
from an oil-spill settlement is not in the same
universe as the types of scandal or spite that
warrant closing the courthouse door. See, e.g., id.
(mentioning these concerns in the context of “the
painful and sometimes disgusting details of a
divorce case” (quotation omitted)). Cases are
heard in courtrooms every day addressing
matters so much more sensitive than this dispute
- workplace harassment, sex crimes, or child
abuse to name just a few. Even in those cases the
courtroom typically remains open to the public.
The Buccaneers’ final justification is an
expectation of secrecy the team says it had
throughout the claim process. Under the
classwide agreement, settlement program
proceedings are confidential. But confidentiality
agreements entered into by private parties, even
if approved by the district court, do not bind this
court. Baxter Intern., Inc. v. Abbott Labs., 297
F.3d 544, 545-46 (7th Cir. 2002) (stating that
notwithstanding
prior
confidentiality
agreements, “any claim of secrecy must be
reviewed independently in [the appellate] court”).
Indeed, the standard letter that is sent to parties
in this court states:
‘Our court has a strong presumption of
public access to our court’s ci records, and
the court scrutinizes any request by a
party to seal Qi.... Counsel moving to seal
matters must explain in particularity the
necessity for sealing in our court. Counsel
do not satisfy this burden by simply stating
that the originating court sealed the

66a

matter, as the circumstances that justified
sealing in the originating court may have
changed or may not apply in an appellate
proceeding.’5
And there is a more fundamental reason that a
sealing agreement by the parties should not bind
a court. It is the public that has the right of
access, so private litigants should not be able to
contract that right away. Most litigants have no
incentive to protect the public’s right of access.
Both sides may want confidentiality. Even when
only one party does, the other may be able to
extract a concession by agreeing to a sealing
request (this type of tradeoff is common in
settlement agreements). That is why it is for
judges, not litigants, to decide whether the
justification for sealing overcomes the right of
access.
At the end of the day, because this court has
maintained confidential treatment of its financial
statements, the Buccaneers’ request for sealing
the oral argument is based on nothing more than
a desire to keep secret that it filed a Deepwater
Horizon claim. The court will leave it to others to
guess why the team is so concerned about public
disclosure of its claim when numerous other BP
claimants in the appeals inundating our court are
5 AROD avers that the entire sentence of this Court’s “Standard
Letter” reads: “Our Court was a strong presumption of public access
to our court’s records, and the court scrutinizes any request by a
party to seal pleadings, record excerpts, or other documents on our
court docket,” the very things that have been sealed in this case
without'any justification!

67a
not. Just three months into this year, at least ten
Deepwater Horizon decisions naming the
claimants have issued. Among them is one from
another of Tampa Bay’s professional sports
franchises, the NHL’s Lightning. See Claimant
ID 10021>871>8 v. BP Expl. & Prod., Inc., 2019 WL
1306302 (5th Cir. Mar. 20, 2019). The court is
unable to discern any reason for keeping secret
the oil- spill claim of a football team when the
claim of a hockey team (and of course those of
numerous other businesses) is a public matter.”
As is its right, Claimant ID 100246928 has used
the federal courts in its attempt to obtain millions
of dollars it believes BP owes because of the oil
spill. But it should not able to benefit from this •
public resource while treating it like a private
tribunal when there is no good reason to do so. On
Monday, the public will be able to access the
courtroom it pays for.”
In the case at bar, precisely WHO sealed the
entire record, WHY the record was sealed, and WHEN,
have not been revealed. And for the same reasons stated
by Judge Costa, in the above- quoted Tampa Bay
Buccaneers case, AROD avers entitlement to unsealing
the record in this case, because the public has the right
to access precisely what it is that the public has been
paying for.
Borrowing again from Judge Costa in the Tampa
Bay Buccaneers case, and authorities cited therein:
“Public confidence in the courts is the issue: How
can the public know that courts are deciding cases

68a
fairly and impartially, if it doesn’t know what is
being decided?
^ :jc

“Sealing a record undermines that interest...
“Open trails assure the public that procedural
rights are respected, and that justice is afforded
equally. Closed trials breed suspicion of prejudice
and arbitrariness, which in turn, spawns
disrespect for law.” (citation)
The Fifth Circuit has established a “standard for
sealing,” i.e., that the proponent of sealing must show
that sealing services “an overriding interest” that is
“essential to preserve higher values [than the
• presumption of public access] and is narrowly tailored to
serve that interest,” United States v. Edwards, 823 F.23
111, 115 (5th Cir. 1987).
Stated simply, no showing whatsoever has been
made by anyone that the ‘strong presumption of public
access should be overridden, much less any “required
showing,” or even some other form of “justification” for
the sealing of the record.
AROD respectfully submits that the entire
record in this case should be unsealed for access by the
public, and for all attendant relief, such as the inclusion
of each document filed in the record, properly described,
with the date and time of filing, and recorded on a Docket
Sheet, which is available to the public via Pacer.

THE RECORD SHOULD BE UNSEALED,
BECAUSE THE PUBLIC
HAS A RIGHT TO KNOW THE FOLLOWING:

69a

1.
The public has a right to know about “who”
AROD really is. See AROD Exhibit No. 8, which is
AROD’s curriculum vitae and list of representative
trials, etc.
2.

The public has a right to know that the Panel, and
the “bought and paid for” Louisiana Supreme Court,
whose March 15, 2017 Order of permanent disbarment
the Panel simply “rubber- stamped,” did a “hatchet job”
on AROD’s character, honesty, and integrity, built up
over the course of more than 35 years a practicing
admiralty and maritime lawyer with the law firm of
Lemle & Kelleher, pre-KATRINA.
3.

The public has a right to know that permanent
disbarment was an unduly harsh and inappropriate
penalty to be imposed against AROD, who the unsealed
record will reveal is a “victim” and “whistle-blower,”
rather than a “rule breaker.” Nothing allegedly done by
AROD fell within the activities described in Appendix
E6 to Louisiana Supreme Court, Rule XIX, namely the
“Guidelines for Disbarment.” AROD Exhibit No. 4,
pages 3-10. Additionally, AROD already has been
“disbarred” for over 10 years, since his summary
suspension from the practice of law in Federal Court by
the lazy, stupid, and corrupt Ivan L.R. Lemelle in
November 2008. See infra.
4.
The public has a right to know that AROD’s life
has been made “a living hell” by a bunch of scoundrels
who control the TOTALLY CORRUPT Louisiana
6 Other than the specious “practicing law without a license” and
“unauthorized practice of law” allegation, which AROD will debunk,
infra.

70a

Attorney Disciplinary System, who retaliated against
AROD and unleashed retribution against him, because
AROD exposed their CORRUPTION of the “Victims of
KATRINA” litigation, in which the innocent victims
failed to recover even a penny in tort damages, all due to
the scoundrels’ criminal corruption of the litigation.
The public has a right to unfettered access to the
entire record in this case, consisting of AROD’s 26
Exhibits, his emails and “letter briefs” to the Court, and
the entire record in the State disciplinary proceedings,
including AROD’s 57 Exhibits which he introduced in
evidence in the State proceedings (but which appear to
be “missing in action”)7. If the public reads nothing else,
then the public should read AROD Exhibit Nos. 1
through 7, 19, 20, and 21. See also AROD’s emails to
Deputy Clerk Butler of 10/10/18 @ 10:09 a.m. and
11/12/18 @ 8:13 p.m. AROD seriously doubts whether
any member of the Panel in this case actually READ a
single AROD Exhibit or written submission to the
which
AROD
entirely
Court,
avers
are
EXCULPATORY.
5.

The public has a right to know that, because
6.
AROD believes these Exhibits are so important to the
public’s being fully informed about the PUBLIC
CORRUPTION which AROD exposed, both in the
“Victims of KATRINA” litigation and in the disciplinary
cases brought against AROD in the Federal and State
7 The “bought and paid for” Louisiana Supreme Court, which
presides over the TOTALLY CORRUPT Louisiana Attorney
Disciplinary System, taxed “costs” against AROD, and more
particularly $24,915 for Xerox copy charges @ $1.00 per page.
AROD avers that he and the public have a right to see what $24,915
cost.

71a

proceedings, AROD is attaching to this Motion his
Exhibit Nos. 6, 7, and 21 for ready reference by the
public.
The public has a right to know why the entire
record in this case has been SEALED, without
disclosing when the sealing was done, the identify of
who8 ordered the sealing of the record, and without
stating any reason(s) for sealing the record. More to the
point, the public has an absolute right to know:
7.

Who is the Panel protecting?
What is the Panel hiding?
8.
The public has a right to know, assuming
arguendo if the object of instituting litigation is
WINNING, particularly massive litigation like the
“Victims of KATRINA” litigation, in which the victims
were entirely innocent, then WHY did the KATRINA
victims recover exactly ZERO in tort damages in the
litigation? The answer will be found in AROD Exhibit
Nos. 1 and 21.
9.
The public has a right to know the identities of the
“legal geniuses”9 who controlled and managed the
Victims of KATRINA” litigation, who were responsible
for the innocent victims of KATRINA recovering

8 AROD avers that whoever sealed the record is “a black-hearted
snake,” who did so for an illicit purpose, much like cloaking
proceedings during the Spanish Inquisition with “secrecy,” which
benefitted only the inquisitors.
,J These guys were real “Clarence Darrows”! Could anyone have
“botched” the handling of the “Victims of KATRINA” litigation like
these “clowns” botched it?

72a

exactly ZERO in tort damages, all as a result of their
CORRUPTION of the litigation.
10.
The public has a right to know that the entire
Louisiana Attorney Disciplinary System, consisting of
the Office of Disciplinary Counsel, Hearing Committees,
the Louisiana Disciplinary Board, and the Louisiana
Supreme Court, which presides over the whole shebang,
is TOTALLY CORRUPT.
11.
The public has a right to know that the
TOTALLY
CORRUPT
Louisiana
Attorney
Disciplinary System, in the persons of former Louisiana
Supreme Court Chief Justice Catherine D. Kimball, her
Chief Disciplinary Counsel, Charles B. Plattsmier, Jr.,
who reported to Kimball, and the former Attorney
General of the State of Louisiana, Charles C. Foti, Jr.,
the Chief Law Enforcement Officer of the State, to
whom Kimball said on September 11,2005, “Somebody’s
got to shut that guy (referring to AROD) up; he’s giving
us all a bad name.,” orchestrated and ordered a criminal
gangland-style hit10 on AROD by GOONS employed by
the Louisiana State Police, and thus committed
outrageous “prosecutorial misconduct” against AROD.
12.
The public has a right to know that ever since
AROD’s abduction, brutalization, torture and false
imprisonment on September 20,2005, within 12 hours of
10 The “hit” included AROD’s being abducted from his home at five
minutes past midnight on September 20,2005, and his brutalization,
torture, and false imprisonment at Camp Amtrak, which left AROD
crippled. This brings to mind the famous quotation of Justice
Brandeis in Olmstead v. U.S., 227 U.S. 438 (1927), namely: “If the
Government becomes a lawbreaker, it breeds contempt for law; it
invites every man to become a law unto himself; it invites anarchy.”

73a
filing the first “Victims of KATRINA” lawsuit, the
TOTALLY
CORRUPT
Louisiana
Attorney
Disciplinary System has been on a “mission” to conceal
and cover-up the crimes which were committed again
AROD, and to discredit and marginalize AROD, so that
AROD’s allegations of PUBLIC CORRUPTION would
not be believed. AROD avers the sealing of the entire
record in this case, by persons unknown, is part and
parcel of this “cover-up,” which now also involves the
United States Court of Appeals for the Fifth Circuit.
The public has a right to know that it is no
13.
coincidence that AROD’s abduction, brutalization,
torture, and false imprisonment occurred with 12 hours
of AROD’s filing the first “Victims of KATRINA”
lawsuit against the United States of America, (through
its agency and instrumentality, the U.S. Army Corps of
Engineers) but which also named the State of Louisiana
and various state entities as defendants.
14.
The public has a right to know that AROD’s suing
the State and various state entities in his “Victims of
KATRINA” lawsuit is significant, because the
CORRUPTION of that litigation, which AROD exposed,
and for which AROD has been severely “punished,” in
retaliation and retribution, revolved around the secret
representation of the State, and the failure of the
plaintiffs’ lawyer cabal (which controlled the litigation)
to sue the State, in Federal or in State Court.
15.
The public has a right to know that the plaintiffs’
lawyer cabal (which controlled the litigation) had a
glaring conflict of interests, because although they were
representing the State in secret, but with the full
knowledge of the presiding Judge, they also controlled

74a

the litigation by virtue of serving on Committees11 in the
litigation, which obligated them to “the Class,” whose
interests played a distant “second fiddle” to the cabal’s
GREED.
16.
The public has a right to know that when AROD
exposed this corruption, dual representation, and
professional misconduct, due to the cabal’s conflict of
interests, which also involved the presiding Judge,
AROD was “marked for death”, figuratively if not
literally. AROD avers that his disbarment, coupled with
the summary dismissal of all of his litigation, the
entering of a wrongful Default Judgment against him,
which forced him into bankruptcy, the filing of spurious
federal criminal charges against him, and incarcerating
him in solitary confinement for 34 days, the loss of
AROD’s home and all of his worldly possession, were all
part of AROD’s being “marked for death” by the
TOTALLY
CORRUPT
Louisiana
Attorney
Disciplinary System.
17.
The public has a right to know that the plaintiffs’
lawyer cabal, to whom the Judge who presided over the
“Victims of KATRINA” litigation12 handed control and
management of the KATRINA litigation, who were all
named defendants in Civil Action No. 08-4728 on the
Eastern District Docket, which AROD has referred to as
“the largest legal malpractice Class Action lawsuit in the
annals of American jurisprudence”:
11 Having been “anointed” to Committees by the presiding Judge,
who knew about the dual representation and conflict of interests,
but corruptly permitted it to flourish, to the ultimate detriment of
the innocent “Victims of KATRINA.”
12 This “crocked-as-a-snake” Federal jurist was “Stanwood R.
Duval, Jr.,”

75a
Failed to sue the State of Louisiana in Federal
Court or in State Court;
Failed to sue the Louisiana Department of
Transportation and Development, which served
as the engineering arm of the Board of
Commissioners for the Orleans Levee District;
Abandoned all claims against the Sewerage and
Water Board of New Orleans;
Abandoned all claims against the Board of
Commissioners for the Port of New Orleans by
failing to file any opposition to the Board’s Motion
for Judgment on the Pleadings;
Conspired and schemed so that “the Broussard
Flood” litigation was moved from Federal Court
to State Court, where the plaintiffs recovered
NOTHING, since the presiding Judge (and his
son, who had represented Broussard and the
Parish for years) was CROOKED and had a
glaring conflict of interests;
Entered into a corrupt and fraudulent
“settlement” with the Orleans Levee Board,
which resulted in some innocent “Victims of
KATRINA” receiving checks for as little as $2.50,
leaving the Board’s non-flood assets completely
intact, and without pursuing the State for the
Board’s malfeasance and mismanagement in
many different respects; and

76a
Failed to pursue, and ultimately abandoned, all
“Responder” causes of action in the “Victims of
KATRINA” litigation.
See: AROD Exhibit Nos. 1,6,11,12,15,17,19,19,20 and
21.
18.
The public has a right to know that the “bought
and paid for” Louisiana Supreme Court, which
steadfastly refused to recuse itself, but which should
have done so, had ABSOLUTELY NO BUSINESS
presiding over and deciding the disciplinary case against
AROD. More to the point, AROD avers that the
unsealing of the record in this case will reveal that the
“bought and paid for” Court was biased and prejudiced
against AROD, both (1) by virtue of AROD’s allegations
of criminal misconduct by the Court’s former Chief
Justice, Catherine D. Kimball, and others, which have
been actively “covered up,” and (2) by virtue of having
been paid TENS OF THOUSANDS OF DOLLARS in
campaign contributions by AROD’s political enemies,
who AROD named as defendants in Civil Action No. OS4728 on the New Orleans Federal Court docket. Because
of its bias and prejudice against AROD, the “bought and
paid for” Louisiana Supreme Court, as will be readily
apparent to the public once the record in this case is
unsealed, the Court should have been recused in order to
comply with Louisiana law, and should have appointed
an unbiased and unprejudiced Judge or Judges to decide
the case, all as is provided for in Article 5, Section 5(A)
of the Louisiana Constitution of 1974. AROD Exhibit
Nos. 4, 6, 7,16, 22, and 23.

77a

19.
The public has a right to know that nothing
demonstrates the DISHONESTY of the Panel’s13 Per
Curiam Opinion of May 31, 2019, like the following
passages, from Page 3.
“Having considered14 the record of the state
proceeding, O’Dwyer’s numerous responses to
the show case order, and his oral argument, we
conclude that the disbarment findings do not
suffer from the substantial infirmities needed for
us to decline to follow the same course the state
court took. The attacks O’Dwyer levels against
the state court findings at most argue for a
different interpretation of his conduct in New
Orleans federal court; he cannot show that the
contrary view of the Supreme Court of Louisiana
- and the federal district court for that matter lacked evidence. To take just one example of
serious misconduct, there was strong support for
the finding that O’Dwyer engaged in the
unauthorized practice of law following his
suspension from the Eastern District of
Louisiana. A motion was filed in an O’Dwyer case
under the signature of O’Dwyer’s cousin who was
a lawyer. What evidence suppo rted the
conclusion that O’Dwver wrote the brief and
forged his cousin’s signature so it could be filed?
One of the most powerful types: a confession.
O’Dwyer admitted in response to an inquiry from
state disciplinary counsel that he had signed his
13 Although the Per Curiam Opinion purports to be “the Panel’s,”
AROD avers that it has the STENCH of James Dennis and/or Jerry
Smith “all over it.”
14 AROD avers that this statement is a “CYA” LIE.

78a

cousin’s name to the filing. 221 So.3d at 8. The
egregiousness of this conduct, occurring while
O’Dwver was already subject to court discipline.
speaks for itself. And nothing in the stacks of
paper submitted in this matter undermines the
state court’s conclusion that O’Dwyer engaged in
this
unauthorized practice.” (emphasis
supplied.)
The last time AROD “checked,” FORGERY WAS A
CRIME. If the Panel truly believes that AROD
FORGED his cousin’s signature on a pleading15 then just
don’t order AROD’s name to be removed from the roll of
attorneys, PROSECUTE HIM CRIMINALLY.
The public has a right to know that the only
“evidence” that the Panel alleged that it had discovered
to answer its own rhetorical question, “What evidence
supported the conclusion that O’Dwyer wrote the brief
and forged his cousin’s signature so it could be filed?,”
was something that the Panel called “a confession.”
However, no transcript volume or page number was
referenced by the Panel; no exhibit number was
referenced.16 All that is referenced by the Panel is a
nebulous citation to the “bought and paid for” Louisiana
Supreme Court reported opinion at “221 So.3cl at 8,”
20.

15 AROD avers that the Panel knew when they wrote it that that
conclusion was FALSE, he., a BOLD-FACED LIE.
16 Surely, the Panel could not have been referring to any AROD
Exhibit, because ALL of AROD’s Exhibits in the State disciplinary
proceedings are “missing in action.” See AROD’s Court Authorized
Post-Hearing Written Submission filed herein on Friday, December
7, 2018, which apparently is SEALED, along with the rest of “the
record.”

79a

which AROD avers does not constitute “evidence” or
“proof’ of anything at all.
The public has a right to know that the issues of
21.
(1) who signed the pleading in question; (2) what
constitutes “the practice of law” in the State of
Louisiana; and (3) the applicable law on the subject, were
briefed ad nauseam in the case record, which has been
SEALED. NONE of what was briefed was even
mentioned in the Per Curiam Opinion. See AROD
Exhibit Nos. 3 (pages 74-110), 4 (pages 6-10), 5 (pages 1528), and 25 in this case, as well as Disciplinary Counsel
Ad Hoc Exhibit No. 54 in the State proceedings, which
clearly and equivocally demonstrate the following:
1)

AROD did NOT sign the pleading; his
cousin, a practicing attorney, did so,
because he was representing AROD in the
case in which the pleading was filed, a case
in which AROD was the sole party
defendant.

2)

To the extent that AROD ever suggested
that anyone other than his cousin signed
the pleading, then AROD was mistaken.

3)

The TOTALLY CORRUPT Louisiana
Attorney Disciplinary System, which is
presided over by the “bought and paid for”
Louisiana Supreme Court, applied NO
LEGAL STANDARD WHATSOEVER17
in reaching the erroneous conclusion that
AROD engaged in the “unauthorized

17 And neither did the Panel in this case.

80a

practice of law,” without citation to any
provision of Louisiana law on the subject.
See Rule 5.5(e)(3) of the Louisiana Rules of
Professional Conduct, LSA-R.S. 37,
Section 212, Article 863 of the Louisiana
Code of Civil Procedure, and Rule 11,
Federal Rules of Civil Procedure.18
22.

The public has a right to know that the Panel’s
imprimatur to the CORRUPT System’s conclusion
“...that O’Dwyer wrote the brief’ is clearly erroneous,
something that unsealing the record will make
abundantly clear. But even if AROD had personally
composed and written EVERY WORD and sentence in
the brief, Louisiana law19 is to the effect that that would
have been ENTIRELY PERMISSIBLE and would not
have constituted “the unauthorized practice of law,”
since AROD was the sole party defendant in the
litigation in which the pleading was filed, and since the
provisions of Louisiana law, which defines “the practice
of law” in this State, namely LSA-R.S. 37, Section 212,
clearly provide that:
“B.

Nothing in this section prohibits any
person from attending to and caring for his
own business claims, or demands.”

Louisiana law would have allowed AROD to defend
himself in a lawsuit in which he was the sole party
defendant and this would have included “writing the
18 The pleading which AROD allegedly signed, but which AROD
DID NOT SIGN - it was signed by his cousin, a lawyer, who
represented AROD - was filed in Federal Court.
19 No provision of which was cited, either by the TOTALLY
CORRUPT State System or by the Panel.

81a

brief’ had he been so inclined. See also Rule 5.5(e)(3) of
the Louisiana Rules of Professional Conduct, Article 863
of the Louisiana Code of Civil Procedure, and Rule 11,
Federal Rules of Civil Procedure.
23.
The public has a right to know that the above and
foregoing DISHONEST statements, conclusions, and
determination color everything which the Panel and the
CORRUPT State System said about whose signature
appears on Disciplinary Counsel Ad Hoc Exhibit No. 54,
and that the unsealed record in this case will lead the
public to conclude that no Court or System was
“eminently qualified to consider and evaluate all
evidence before it,”20 and will leave the public with a
clear conviction that the entire 3-page Per Curiam
Opinion, like the Louisiana Supreme Court’s Order of
Disbarment, is “faulty.” In re: Stamps, 173 Fed. App.
316,318 (5th Cir. 2006). In other words:
FALSUS IN UNO
FALSUS IN OMNIBUS!
24.
The public has a right to know that, in her letter
to AROD of October 5, 2018, Deputy Clerk Saltzman
informed AROD that:
“The sole issue for consideration is whether the
United States Court of Appeals for the Fifth
Circuit should impose upon you reciprocal
20 The CORRUPT State System could not even “get straight” a onepage Exhibit, namely Disciplinary Counsel Ad Hoc Exhibit No. 54,
which was entered in evidence without objection. But the Panel also
“botched” its analysis.

82a
discipline based on the order of the Supreme
Court of Louisiana. See Selling v. Radford, 243
U.S. 46 (1917).”
25.
The public has a right to know that the Panel
failed to perform the requisite step-by-step analysis of
the State disciplinary proceedings and State record, as
mandated by the U.S. Supreme Court in Selling v.
Radford, which required “an intrinsic consideration” to
determine whether any exception to the imposition of
reciprocal discipline existed in AROD’s case. The Panel
was, therefore, in error when it disciplined AROD by the
imposition of reciprocal discipline.
26.
The public has a right to know that the Panel
abrogated its responsibility to perform intrinsic
consideration of the record in the State proceedings, not
to mention the contents of the SEALED record in this
case. More to the point, AROD avers that the Panel DID
NOT EVEN READ, much less give intrinsic
consideration to, the record in the State proceedings OR
the record(s) submitted to the Court by AROD in this
case, which have been SEALED. This is clear from the
Panel’s statements that AROD “seeks to relitigate,”
“our task...is much more limited,” and “[w]e do not
review as an original matter” the underlying allegations,
in clear violation of Judge Wisdom’s instructions in In re:
Wilkes, 494 F.2d, 472 (5th Cir. 1974), wherein he
unequivocally directed that:
“Federal courts must ‘determine for ourselves
the right to continue to be a member of...[the
federal] Bar’ after giving ‘intrinsic consideration’
to the underlying record.” 494, F.2d at p. 476.
(emphasis supplied.)

83a
AROD
avers
that the mandated
“intrinsic
consideration” for Federal Courts “to determine for
ourselves” DOES NOT MEAN “merely apparent or
accidental” consideration, but “deep-rooted,” “deepseated” and “intimate” consideration, which the Panel in
this case admittedly failed to do. And how could the
Panel do so, with all of AROD’s 56 Exhibits in the State
proceedings being entirely “missing in action,” and the
entire record in this case, which “someone” does not
want the public to access, being SEALED?
27.
The public has a right to know that the Panel in
this case completely abrogated its responsibility to
perform
an
intrinsic
consideration
and
“wholly...abdicate[d]...[its]...own functions by treating
its judgment as the thing adjudged,” and shutting its
eyes to justice and fundamental fairness. Selling v.
Radford, 243 U.S. 46 (1917).
28.
The public has a right to know that the Panel
erroneously deferred to the findings of the “bought and
paid for” Louisiana Supreme Court, which should have
been recused and had NO BUSINESS deciding the case
against AROD (se infra), saying that the LSC
“conducted] that O’Dwyer engaged in a ‘panoply of
serious professional violations’.” However, save for one,
stemming from the erroneous determination that AROD
signed his cousin’s name to a pleading ACTUALLY
SIGNED BY AROD’S COUSIN, the Panel deftly
avoided identifying ANY of the “panoply of serious
professional violations” or how any of them - whatever
they were - warranted permanent disbarment for
AROD,. who has been “disbarred,” in effect, since
November 2008, for over 10 years already.

84a
29.
Rather than enumerating the various steps it
should have taken in order to determine whether any of
the exceptions to the imposition of “reciprocal discipline”
existed, and stating what it did to perform the analysis
mandated by the U.S. Supreme Court in Selling v.
Radford, U.S. (1917), the Panel dismissively disposed of
AROD’s arguments and evidence in the SEALED
record with the following conclusory and unreasoned
statements, which also are WRONG:
1)

“O’Dwyer seeks to relitigate his
underlying discipline in the United States
District Court for the Eastern District of
Louisiana that led to his State
disbarment....But our task in considering
reciprocal discipline is much more limited.”

2)

“The State court disciplinary proceedings
provided O’Dwyer with fulsome process.”

3)

“The State disbarment proceeding
afforded O’Dwyer the process he was due.”

4)

“[W]e conclude that the disbarment
findings do not suffer from the substantial
infirmities needed for us to decline to
follow the same course the State court
took.”

30.
The public has a right to know that, if AROD’s
case did not present the Panel with any of the exceptions
to the imposition of reciprocal discipline enumerated by
the U.S. Supreme Court in Selling v. Radford, namely:
1)

want of due process;

85a

2)

unwarranted conclusions not supported by
facts; and

3)

fundamental unfairness, or other grave
and sufficient reasons, or grave injustices,

then no exception to the imposition of reciprocal
discipline will ever exist, at any time, in any case.
31.
The public has a right to know that all of AROD’s
post-KATRINA “troubles” commenced when AROD
became the subject of a criminal gangland-style “hit” at
his St. Charles Avenue home at five minutes past
midnight on September 20, 2005. That “hit” involved
AROD’s abduction from his home by a detail of
Louisiana State Police GOONS, and AROD’s
brutalization, torture, and false imprisonment at Camp
Amtrak, where AROD was pepper-sprayed in the face
30 to 40 times and shot in both lower extremities at
point-blank range, with a 12-gauge shotgun loaded with
bean bag rounds, while AROD’s hands were cuffed
behind his back, or while AROD was on the other side of
a chain-link “dog cage” and separated from his attackers.
AROD avers that the psychopaths and sociopaths who
did this to him, all employees of the State of Louisiana,
as well as the scoundrels who ordered and orchestrated
the hit,21 belong in prison.
32.
The public has a right to know that the
TOTALLY
CORRUPT
Louisiana
Attorney
21 These scoundrels include former Louisiana Supreme Court Chief
Justice Catherine D. Kimball, her Chief Disciplinary Counsel
Charles B. Plattsmier, Jr., and the former Attorney General of the
State of Louisiana, the State’s Chief Law Enforcement Officer,
Charles C. Foti, Jr.

86a
Disciplinary System summarily dismissed “on the
papers,” with no adversarial “hearing” whatsoever, and
without stating any cogent reasons for doing so,
AROD’S complaints of professional misconduct against
the conspirators who ordered the criminal ganglandstyle “hit” against him, and which was executed at five
minutes past midnight on September 20,2005, and which
left AROD crippled. AROD Exhibit Nos. 1,16, and 20.
33.
The public has a right to know that the
TOTALLY
CORRUPT
Louisiana
Attorney
Disciplinary System summarily dismissed “on the
papers,” with no adversarial “hearing” whatsoever, and
without stating any cogent reasons for doing so, AROD’s
complaints of professional misconduct against the
scoundrels who corrupted the “Victims of KATRINA”
litigation by virtue of their dual representation of “the
Class,” and their simultaneous “secret” representation
of the State, and -their failure to sue the State, either in
State or Federal Court (they could not sue their own
client), the result being that the innocent Victims of
KATRINA recovered exactly ZERO in tort damages,
when the United States of America was determined to
be immune. AROD Exhibit Nos. 1, 6,17,18, 20, and 21.
34.
The public has a right to know that the Panel’s
conclusory statements that AROD “cannot show that
the contrary view of the Supreme Court of Louisiana and the Federal District Court for that matter - lacked
evidence” are clearly erroneous and unsupported by and
contrary to the record, which AROD avers was not
subjected to “an intrinsic consideration” by the Panel, as
required by Selling v. Radford.

87a

35.
The public has a right to know that it is a “cruel
irony” that AROD’s alleged misconduct, which has
gptten him disbarred by TOTALLY CORRUPT legal
and judicial systems, does not even come “close” to the
criminal judicial and professional misconduct which is
contained in the record of this case, which had been
sealed by persons unknown, and which is of “hurricane
strength” variety, which misconduct remains
unpunished, committed by the likes of Catherine D.
Kimball, Charles B. Plattsmier, Jr., Charles C. Foti, Jr.,
Stanwood R. Duval, Jr., Calvin C. Fayard, Jr., Joseph
Bruno, Daniel Becnel, Ivan L.R. Lemelle, and many
others. AROD Exhibit Nos. 6 and 21.
36.
The public has a right to know that the Panel’s
conclusory statement that “the State disbarment
proceeding afforded O’Dwyer the process he was due” is
clearly erroneous, constituted an unwarranted
conclusion not supported by facts, and is contrary to the
contents of the record in the State disciplinary
proceedings, which reflect exactly the opposite.
37.
The public has a right to know that AROD was
denied all procedural and substantive due process of law
by the TOTALLY CORRUPT Louisiana Attorney
Disciplinary System, which consisted of the Office of
Disciplinary Counsel, Hearing Committees, the
Disciplinary Board, and the Louisiana Supreme Court,
which presided over the entire CESSPOOL.
The public has a right to know that the
TOTALLY
CORRUPT
Attorney
Louisiana
Disciplinary System denied AROD due process of law in
proceedings which were fundamentally unfair, because
AROD
wrongfully
was
and
illegally
38.

88a
prosecuted/persecuted through a so-called “Disciplinary
Counsel Ad Hoc,” for which there is no provision in
Louisiana Law under the circumstances of AROD’s case
[other than Louisiana Supreme Court Rule XIX, Section
18(J)(1), which is simply not applicable]. Even the
degenerate criminal vermin scum, Plattsmier, admitted
that a Disciplinary Counsel Ad Hoc had been used in only
one case other than AROD’s case, being the case
involving lawyer Greg Gamble, who Plattsmier said
“may have consented to disbarment.” O’Dwyer Exhibit
No. 11 in the State proceedings, pages 121-122; DCAH
Exhibit No. 68, pages 121-122.
39.
The public has a right to know that AROD was
denied due process of law in proceedings which were
fundamentally unfair because so-called “hearings” were
held in which AROD’s written submissions were not
read, and what AROD said in argument and testimony
was not listened to, and because rulings were summarily
made against AROD with no hearings at all. In other
words, the TOTALLY CORRUPT Louisiana Attorney
Disciplinary System paid “lip service” to the notion of
procedural due process, while denying AROD both
procedural and substantive due process, in proceedings
that were fundamentally unfair “Kangaroo Court”
proceedings, in which “the fix was in” from the “get go.”
40.
The public has a right to know that AROD was
denied due process of law in fundamentally unfair
proceedings, because in the eleven (11) years since the
filing of a complaint of professional misconduct against
AROD on April 2, 2008, neither the corrupt Federal nor
the corrupt State Attorney Disciplinary Systems
addressed even remotely, even in passing, the criminal
conduct that had been directed against AROD on

89a
September 20, 2005, when he was abducted from his
home, and brutalized, tortured, and falsely imprisoned at
Camp Amtrak, outrageous criminal conduct which
remains unpunished to this very day.
The public has a right to know AROD was denied
41.
due process of law by the TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, in proceedings
fundamentally
unfair,
because
that
were
notwithstanding the fact that “the System” had the
burden of proof, “the System” ignored that fact, and did
not require “the System” to call a single witness who
could be cross- examined under oath. This happened
while “the System” simultaneously required AROD to
prove his defenses beyond all shadow of a doubt, and
then denied AROD the tools necessary to do so, ie^ “the
System” denied AROD any and all opportunity to
conduct rigorous discovery.
The public has a right to know that AROD was
42.
denied due process of law by a TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, which should
have been recused (but “the System” refused to do so),
in proceedings that were fundamentally unfair, and
failed to dismiss the Formal Charges against AROD.
AROD EXHIBIT NOS. 3,16, 17,18, 22, 23, and 24, and
AROD’s emails to Deputy Clerk Butler of 11/12/18 @
8:13 p.m. and 10/16/18 @ 9:57 a.m.
The public has a right to know that AROD was
43.
denied due process of law, in fundamentally unfair
proceedings brought by a TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, which failed to
investigate, much less prosecute, the crimes which have
been committed against AROD, and by failing to allow

90a
proper discovery, and for the one witness who was
allowed to give a deposition, Plattsmier, precluding
questions (or any paper and electronic discovery) about
Plattsmier’s, Kimball’s, and Foti’s participation in the
events of September 20, 2005.
44.
The public has a right to know that AROD was
denied due process of law, in proceedings that were
fundamentally unfair brought by a TOTALLY
CORRUPT Louisiana Attorney Disciplinary System,
which failed to impose discipline on the multitude of
individuals who committed criminal judicial and
professional misconduct against AROD and against
AROD’s 2000 or so KATRINA clients. AROD Exhibit
Nos. 1, 6, 20, and 21.
45.
The public has a right to know that AROD was
denied due process of law, in fundamentally unfair
proceedings brought by a TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, which imposed
no consequences on Kimball, Plattsmier, and Foti for
their criminal acts and judicial and professional
misconduct towards AROD. AROD Exhibit Nos. 20 and
24 and AROD email to Deputy Clerk Butler of 11/12/18
@ 8:13 P.M.
46.
The public has a right to know that AROD was
denied due process of law in fundamentally unfair
proceedings in which the corruption of the “Victims of
KATRINA” litigation by a bunch of scoundrels was
never substantively addressed. AROD Exhibit Nos. 1,6,
17,18, and 21.
47.
The public has a right to know that AROD was
denied due process of law, in fundamentally unfair

91a
proceedings brought by a TOTALLY CORRUPT
Louisiana Attorney Disciplinary System, which
appointed several utra vires “Disciplinary Counsels Ad
Hoc” who had multiple conflicts of interests, and then
failed to do anything (ie recusal) about these conflicts
prior to the rendering of summary decisions which were
adverse to AROD and his clients in related disciplinary
cases involving criminal professional misconduct,
namely in the following cases:
1.

Docket No. 13-PDB-122, dealing with
AROD’s abduction, brutalization, torture,
and false imprisonment.

2.

Docket No. 15-PDB-008, dealing with the
corruption of the “Victims of KATRINA”
litigation.

3.

Lying on the record and failing to
withdraw false “practicing law without a
license” allegations. AROD Exhibit No. 3
(pages 74-110), 4 (pages 6-10), 5 (pages 1528), and 25.

Each of the above-referenced cases was summarily
dismissed by the TOTALLY CORRUPT Louisiana
Attorney Disciplinary System without any hearing at
all. AROD Exhibit Nos. 1, 6,16,17,18,20, and 21.
48.
The public has a right to know that the Federal
Judge whose actions resulted in AROD being
suspended, and later disbarred, in Federal Court,
namely Ivan L.R. Lemelle, is lazy, stupid, and corrupt,
and engaged in outrageous criminal conduct toward

92a

AROD, which constituted an abuse of power and judicial
misconduct.
49.
The public has a right to know that BUT FOR the
filing of a complaint for (alleged) professional misconduct
against AROD in Federal Court on April 2, 2008, the
Formal Charges in the State proceedings would never
had been brought. In other words, the Federal
proceedings instituted in April 2008 constituted the
poisonous tree from which the fruit of the State
proceedings that resulted in AROD’s permanent
disbarment in March 2017 later sprung. During the
pendency of this case, AROD has variously described
this as “fruit of the poisonous tree,” “old wine in new
bottles,” “hand-in-glove,” and “a BUT FOR analysis.”
The public has a right to know that the Federal
disciplinary proceedings, which were largely handled by
the lazy, stupid, and corrupt Lemelle, who should have
recused, denied AROD due process of law and were
fundamentally unfair. AROD EXHIBIT NO. 2 in these
proceedings and attached Exhibits, as well as O’Dwyer
Exhibit Nos. 6(A), 6(B), 40,42,43,44, and 45, in the State
proceedings.
50.

51.
The public has a right to know that the Federal
disciplinary proceedings were brought against AROD in
retaliation and retribution for AROD’s having called
Federal Judge Stanwood Duval, his “close personal
friend of longstanding,” Calvin Fayard, and Plaintiffs’
Liaison Counsel in the KATRINA litigation, Joseph
Bruno, who was anointed by Duval, and a host of other
Duval and Fayard “cronies,” CROOKED. AROD
Exhibit Nos. 1, 2, 6, 9,10,11,12,13,14, and 21.

93a
52.
The public has a right to know that AROD was
denied due process of law, and that the Federal
proceedings against him were fundamentally unfair,
because the lazy, stupid, and corrupt Lemelle (indeed,
the entire Eastern District Bench) failed to follow the
Attorney Disciplinary Rules which were in effect in
April 2008, and instead of appointing one or more
unbiased and unprejudiced investigators to perform a
thorough investigation of the Complaint, which AROD
would have then been entitled to traverse, through Rule
16 pre-trial procedures, such as engaging in discovery,
and a full-blown trial before the entire Court, Lemelle,
who should have recused himself, proceeded on a purely
summary basis against AROD, contrary to the
applicable Rules. AROD Exhibit No. 2, with attached
Exhibits, as well as AROD’s Complaint and
Supplemental and Amended Complaint in Civil Action
No. 08-3170, which are O’Dwyer Exhibit Nos. 6(A) and
6(B) in the State proceedings.
The public has a right to know that the lazy,
53.
stupid, and corrupt Lemelle denied AROD due process
of law, in proceedings that were fundamentally unfair,
by failing to disclose to AROD Lemelle’s own judicial
misconduct, which is documented in the case of In Re
High Sulphur Content Gasoline Procuts Liability
Litigation, 517 F.3d 220 (5th Cir. 2008), as well as
Lemelle’s various relationships with, and bias and
prejudice for, lawyer defendants in Civil Action No. OS4728 on the Eastern District docket to whom AROD was
adverse, including Daniel Becnel and Walter Dumas.
AROD Exhibit Nos. 2 (and attached Exhibits) and 6, and
the case cited, supra.

94a

54.
The public has a right to know that AROD was
denied due process of law in proceedings that were
fundamentally unfair, because the lazy, stupid, and
corrupt Lemelle, and his Brother and Sister Judges on
the Eastern District Bench, all failed to recuse
themselves, thus committing judicial misconduct. AROD
Exhibit Nos. 2 and 21 (and attached Exhibits) in these
proceedings, and O’Dwyer Exhibit Nos. 6(A), 6(B), 44,
and 45 in the State proceedings, and Disciplinary
Counsel Ad Hoc Exhibit Nos. 40, 42, 43, and 44 in the
State proceedings.
55.

The public has a right to know that the lazy,
stupid, and corrupt Lemelle denied AROD due process
of law in proceedings that were fundamentally unfair,
because AROD was not allowed to conduct any Rule 26
discovery to permit AROD to advance his defenses in
any meaningful way.
56.
The public has a right to know that AROD was
denied clue process of law in proceedings that were
fundamentally unfair, because the lazy, stupid, and
corrupt Lemelle failed to implement any Rule 16 pre­
trial procedures, instead conducting summary
proceedings which, “on the surface,” allowed Lemelle to
pay lip service to the motion of due process, but which
were, in fact, “Kangaroo Court” proceedings in which
“the fix was in,” with AROD being railroaded. AROD
was entitled under the applicable Disciplinary Rules in
effect at the time to discovery, pre-trial procedures and
trial on the merits before the En Banc Court, all of which
was summarily denied AROD by the lazy, stupid, and
corrupt Lemelle.

95a
57.
The public has a right to know that AROD was
denied due process of law in proceedings that were
fundamentally unfair because the lazy, stupid, and
corrupt Lemelle lied repeatedly on the record by saying,
in Orders and Reasons: “Respondent Attorney stated he
could not think of a fairer Judge to hear the complaint
against him than the undersigned,” and then repeating
that lie by allowing the then-Chief Judge to say the same
thing, in writing, without correcting his prior statements
or the Chief Judge’s statement, which he knew to be
LIES. AROD Exhibit No. 2 (and attached Exhibits) and
21, and O’Dwyer Exhibit Nos. 6(A) and 6(B) in the State
proceedings.
58.
The public has a right to know that AROD was
denied due process of law in proceedings that were
fundamentally unfair, when the lazy, stupid, and corrupt
Lemelle demonstrated his actual bias and prejudice
against AROD by entering an illegal and wrongful
Default Judgment against AROD for a sum of money
approximating $150,000 to $200,000 after he had already
disbarred AROD, which forced AROD to declare
bankruptcy, which was Lemelle’s nefarious object all
along, and which cost AROD his home on St. Charles
Avenue, among other things. AROD Exhibit No. 21.
59.
The public has a right to know that the matters
outlined supra, which are fully supported by the
contents of the record in this case, which has been sealed,
at a time unknown, by a person or persons unknown, for
reasons unknown, evidenced:
1)

want of due process;

96a

2)

unwarranted conclusions not supported by
facts; and

3)

fundamental unfairness, or other grave
and sufficient reasons, or grave injustices;

All constituting good and valid reasons not to impose
reciprocal discipline in AROD’s case.
60.
The public has a right to know that, for all of the
many
“transgressions”22
that
the
TOTALLY
CORRUPT Louisiana Attorney Disciplinary System
hurled at AROD,23 it was NEVER EVEN.ALLEGED
that AROD ever caused harm to any of the 2,000 or so
Hurricane KATRINA clients, a fact that was conceded
by Disciplinary Counsel Ad Hoc. In his Original Brief
filed in the Louisiana Supreme Court on December 15,
2016, in Case No. 2016-B-1848, Disciplinary Counsel Ad
Hoc wrote that AROD’s statement that “there is no *
allegation that [he] caused any harm to his almost 2,000
KATRINA clients” was “absolutely correct.” See page
8, Part VII of the Original Brief of Disciplinary Counsel
Ad Hoc. Of course, the same cannot be said of the
scoundrels who corrupted the “Victims of KATRINA”
litigation, the result being that the innocent hurricane
victims recovered ZERO in tort damages in the
litigation.24 And the scoundrels who were responsible for
that fiasco remain unpunished!
52 The alleged “panoply of serious professional violations,” which the
Panel failed to identify.
2:3 The TOTALLY CORRUPT System “threw the kitchen sink” at
AROD.
24 Although some as-yet-unidentified victims received checks for as
little as $2.50 from the corrupt and fraudulent Levee Board
“settlement.”

97a
The public has a right to know that, at the end of
61.
AROD’s oral argument presentation to the Panel on
December 4, 2018, and in his “Court-Approved PostHearing Written Submission” filed herein on December
7,2018, AROD made the following plea:
At oral argument, AROD suggested to the Panel
that it had the power to write a judicial opinion
that addressed the PUBLIC CORRUPTION and
judicial and professional misconduct, which he
exposed - matters that were not previously
addressed in any substantial way by the corrupt
Federal and State judicial and legal systems at
any level. AROD also suggested to the Panel that
the Public had a right to know about this
CORRUPTION, which has been “kept under
wraps” for more than ten (10) years, intentionally
and willfully so.
AROD further suggested to the Panel that it had
the power to “take the bull by the horns,” and to
do what Lemelle and the Eastern District Bench
failed to do in April 2008, namely invoke former
Eastern District Rule III(B) of the former Rules
of Disciplinary Enforcement (AROD EXHIBIT
NO. 26) and appoint an investigator or
investigators to investigate the case properly,
thoroughly and in an unbiased and unprejudicial
fashion, with anyone so appointed (be they “the
United States Attorney, his/her assistants, and/or
any other member or members of the bar”) being
“as pure as the driven snow,” and being
UNAFFILIATED
with
and
being
UNCONNECTED to the Eastern District of
Louisiana or with the Louisiana Plaintiffs’ Bar.

98a
Recall that AROD also suggested to the Panel
that, because the Public has the right to know
about the CORRUPTION which he exposed, then
“clear and concise” instructions should be given to
the investigator(s) in order to afford AROD what
was denied to him in 2008, and to ensure that
there was no repeat of a Kangaroo- Court,
rubber-stamp-type “cover up.” With that done,
AROD expressed hope that, with one or more
proper, unbiased and unprejudiced investigators,
and with a proper, thorough and fully transparent
investigation and report pursuant to former
disciplinary Rule III(B), AROD would be deemed
credible, and the PUBLIC CORRUPTION that
he exposed would no longer be allowed to flourish
within the jurisdiction of the Fifth Circuit.
And what did the Panel do in response? The Panel swept
under the rug the corruption which AROD exposed,
turned its back on him, and rubber-stamped the decision
of the “bought and paid for” Louisiana Supreme Court to
disbar AROD. And after that, “someone” sealed the
entire case record from public view.
62.
The public has a right to know that the Fifth
Circuit and the Eastern District of Louisiana are
CESSPOOLS. Former Chief Judge Jones dropped the
ball and failed to do anything about the corruption and
judicial misconduct which AROD reported to her. The
Judicial Council dropped the ball and failed to do
anything about it. And the Panel in this case dropped the
ball and not only failed to do anything about it, but
allowed “someone” to seal the entire record so that it
could all be hidden from public view. See AROD’s 2009
Complaints of Judicial Misconduct (as supplemented and

99a
amended) against Duval and Lemelle (Judicial
Misconduct Complaint Case Nos. 05-09-90128 and 05-0990129), and AROD’s July 14, 2010 Complaint of Judicial
Misconduct against Duval.
The public has a right to know that, for all of the
death, misery, and property damage caused by
Hurricane KATRINA, and for all of the criminal
misconduct revealed herein, including judicial and
professional misconduct, AROD has been the only
person “punished.”
63.

CONCLUSION
The only reason that anything in AROD’s case
record should be SEALED should be to preserve the
secrecy of Grand Jury Proceedings. Is the empanelment
of a Federal Grand Jury the reason why AROD’s entire
case record has been sealed? AROD can only hope.

s/Ashton R. O’Dwyer. Jr.
ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

100a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent
RESPONDENT’S RULE 27.4 CERTIFICATE OF
INTERESTED PERSONS AND ENTITIES

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

101a
The undersigned certifies that the following listed
persons and entities as described in the fourth sentence
of Rule 28.2.1 have an interest in the outcome of this case.
These representations are made in order that the judges
of this Court may evaluate possible disqualification or
recusal.
The State of Louisiana
The Executive Branch of the State of Louisiana
The Judicial Branch of the State of Louisiana
The Louisiana Supreme Court
The Louisiana Attorney Disciplinary Board
The Office of Disciplinary Counsel
Disciplinary Counsel ad hoc Mark Dumaine
The East Baton Rouge District Attorney’s Office
The Louisiana Department of Justice
The Office of the Louisiana Attorney General
The Louisiana Department of Public Safety and
Corrections, including the Louisiana State Police
and the Department of Corrections
State Trooper John Nelson
State Trooper Christopher Ivy

' 102a

The Louisiana Division of Administration

I

The Louisiana Office of Risk Management
The U.S. Department of Justice
The Eastern District U.S. Attorney’s Office
The Middle District U.S. Attorney’s Office
Former Assistant U.S. Attorney Michael Magner
Former Assistant
Higginson

U.S.

Attorney

Stephen

Former Assistant U.S. Attorney Brian Marcell
The Federal Bureau of Investigation
All Attorneys and parties in Civil Action No. 05
4182 on the Eastern District Docket
The United States of America
The U.S. Department of Justice
The U.S. Army Corps of Engineers
The Defendants in Ashton O’Dwyer’s Civil Rights
Litigation, Case No. 08-30052 in this Court
Catherine D. Kimball
Charles B. Plattsmier, Jr.

103a

• Charles C. Foti, Jr.
The Law Firm of Lemle & Kellher and its former
partners
The Civil Division of Louisiana Department of
Justice
Michael Keller
Phylis Glazer
Paul B. Deal
Shelly Dick
Other Attorneys
within
the
Department of Justice and the
Attorney General’s Office

Louisiana
Louisiana

Louisiana
Various
state
agencies,
instrumentalities and political subdivisions,
including the
Louisiana Department of
Transportation and Development
The Board of Commissioners of the
Orleans Levee District,
The Board of Commissioners of the East
Jefferson Levee District,
The Board of Commissioners of the St.
Bernard Levee District,
The Parish of Jefferson,

104a

The Sewerage & Water Board of New
Orleans,
The Board of Commissioners of the Port of
New Orleans, and
The Louisiana Governor’s Office of
Homeland Security and Emergency
Management.
Aaron Broussard
Judge Stanwood R. Duval
Judge Ivan L.R. Lemelle
Judge Lance Africk
'

Judge Sarah Vance
All other Eastern District of Louisiana Judges
Bankruptcy Judge Jerry Brown
Bankruptcy Judge Elizabeth Magner
Joseph Bruno
Calvin Fayard
Daniel Becnel
The named Defendants in Civil Action No. OS4728 on the Eastern District Docket, which is
“AROD Exhibit No. 6” in this case

105a
Virtually the entire Fifth Circuit Bench, but
including particularly, Judges Janies Dennis,
Jerry Smith, and Stephen Higginson, as well as
the Panel members in this case, Judges Costa,
Duncan and Willett
<■
s/Ashton R. O’Dwver, Jr.
ASHTON R. O’DWYER, JR.
Respondent
In propria persona

\

106a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent

CERTIFICATE OF COMPLIANCE

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number:
(504) 8129185
arodjrlaw@aol.com

107a

COMES NOW Respondent, Ashton R. O’Dwyer,
Jr., appearing in 'propria persona pursuant to the
provisions of Rule 32(g)(1) of the Federal Rules of
Appellate Procedure, and certifies that Respondent’s
Motion for Reconsideration, which was originally
tendered to the Clerk of Court for filing electronically on
November 25,2020, complies with the type-volume limit
of Rule 27(d)(2)(A) of the Federal Rules of Appellate
Procedure because the said Motion for Consideration
contains 2,363 words.

s/Ashton R. O’Dwve r. J r.
ASHTON R. O’DWYER, JR.
Respondent
In propria persona

108a
11/18/2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE: ASHTON R. O’DWYER, JR., Petitioner
Before: Costa, Willett, and Duncan, Circuit Judges.
Per Curiam:
IT IS ORDERED that the Petitioner’s motion to
reopen the case is DENIED.
IT IS FURTHER ORDERED that the
Petitioner’s motion to vacate the panel’s May 31, 2019,
Per Curiam opinion is DENIED.

109a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR.
Respondent
MOTION FOR RECONSIDERATION

ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number: (504) 812-9185
arodjrlaw@aol.com

)

110a

MAY IT PLEASE THE COURT:
COMES NOW Respondent, Ashton R. O’Dwyer,
Jr., appearing in propria persona, pursuant to the
Federal Rules of Appellate Procedure, the Fifth
Circuit’s Internal Operating Procedures, and the Fifth
Circuit “Practitioners’ Guide” and the Section of the
Guide pertaining to “Motions Processing,” and
particularly to that Section which addresses
“Reconsideration,” which provides as follows:
“Reconsideration. A reconsideration of action on
a motion must be filed within 14 days unless the
United States is a party in a civil case, see 5th Cir.
R.27.1 Reconsideration requests are limited to 15
pages.”
Respondent
does
hereby
move
for
* reconsideration of the 11/18/20 Order of Judges Costa,
Willett, and Duncan, copy attached, and for the following
additional relief, upon the following grounds, to wit:
1)

The subject matter of Respondent’s
“Motion to Re-Open Case, etc.,” Record
Document No. 9416267, et seq.. underlying
the Order for which Respondent now seeks
reconsideration, was “undisclosed conflicts
of interests” by Panel Member Judge
Stuart Kyle Duncan, which Respondent
avers disqualified Judge Duncan from
participating any further in this case due to
obvious conflicts of interests, coupled with
Judge Duncan’s actual bias and prejudice
and his inability to be fair and impartial in
matters involving Respondent. The

111a

aforesaid Order does not address Judge
Duncan’s undisclosed conflicts of interests
or the consequences that the U.S. Supreme
Court has decided must flow therefrom.
See
Commonwealth
Coatings
v.
Continental Cas., 393 U.S. 145 (1968).
Respondent avers that Judge Duncan
must be disqualified and replaced for
purposes of this Motion.
2)

The remaining Panel Members, Judges
Costa and Willett, were also corrupted,
tainted and polluted by Judge Duncan’s
continued participation in this case, and
should also be replaced by one or more
other judges, who do not have any conflicts
of interests, who are not tainted by Judge
Duncan’s undisclosed conflicts, bias and
prejudice, and who should be appointed to
decide this Motion for Reconsideration
fairly and impartially, in place and instead
of Judges Duncan, Costa and Willett. See
Williams v. Pennsylvania, 136 S.Ct. 1899
(2016).

3)

Judge Duncan’s participation in rendering
decision on Respondent’s underlying
“Motion to Re-Open Case, etc.” was “bad
enough.” But Judge Costa’s and Judge
Willett’s participation in same, after they
had actual knowledge of the Motion’s
subject matter was, perhaps, even more
egregious than Judge Duncan’s failure to
disclose his conflicts of interest with the
State of Louisiana to Respondent in the

112a

first instance. This added “insult to
injury,” and denied Respondent the due
process of law he was guaranteed by the
5th Amendment to the U.S. Constitution.
See In re Murchinson, 349 U.S. 133 (1955);
Williams v. Pennsylvania, supra.
4)

Respondent put Judges Costa, Duncan and
Willett “on notice” of their “interest in the
outcome of this case” by specifically
naming them in the penultimate
identifying entry in “Respondent’s Rule
27.4 Certificate of Interested Persons and
Entities,” filed on 11/17/20, which they
chose to ignore for reasons which they
have not disclosed to Respondent. Another
such Certificate is filed simultaneously
herewith. Both Certificates clearly reflect
that “These representations are made in
order that the Judges of this Court may
evaluate possible disqualifications or
recusal.” Judges Costa and Willett should
be disqualified and replaced.

THE ENTIRE ORIGINAL PANEL SHOULD BE
DISQUALIFIED AND THIS MOTION FOR
RECONSIDERATION SHOULD BE SUBMITTED
TO ONE OR MORE “FAT R AND TM PARTIAL”
JURISTS FOR DECISION
On September 10, 2020, Respondent learned that
Panel Member Judge Stuart Kyle Duncan had failed to
disclose to Respondent, prior to his participating in the
issuance of the Panel’s Per Curiam Opinion of May 31,
2019, numerous conflicts of interests arising out of his 10-

113a

year “direct, extensive and substantial associations and
relationships with the State of Louisiana, and with State
entities, cases, and individuals. Accordingly, Respondent
filed a “Motion to Re-Open Case, etc., coupled with a
detailed “Declaration Under Penalty of Perjury,” which
enumerated the undisclosed conflicts. Within about 24
hours of Respondent’s filing that Motion and
Declaration, a Panel consisting of Judges Duncan, Costa
and Willett summarily ruled that:
“Before Costa, Willett, and Duncan, Circuit
Judges.
Per Curiam:
IT IS ORDERED that the Petitioner’s
motion to reopen the case is DENIED.
IT IS FURTHER ORDERED that
Petitioner’s motion to vacate the panel’s May 31,
2019, Per Curiam opinion is DENIED.”
The said Order, copy attached, was unsigned.
Since Respondent’s underlying Motion sought
relief due to Judge Duncan’s non-disclosure of conflicts
of interests, and his bias and prejudice, Respondent was
considerably more than “just a little surprised” how
Judge Duncan could have ethically participated in
deciding Respondent’s Motion, since he had a “personal
stake” in the outcome. The Supreme Court made clear in
In re Murchinson, 349 U.S. 133 (1955) that:
“A fair trial in a fair tribunal is a basic
requirement of due process. Fairness, of course,
requires an absence of actual bias in the trial of
cases. But our system of law has always
endeavored to prevent even the probability of
unfairness. To this end no man can be a judge in

114a

his own case, and no man is permitted to try cases
where he has an interest in the outcome. That
interest cannot be defined with precision.
Circumstances and relationships must be
considered.” (Emphasis supplied.)
This Rule that “fair tribunal(s)” must follow was
recently reinforced by the Supreme Court in Williams v.
Pennsylvania, 136 S.Ct. 1899 (2016), in which the Court
stated:
“Due process guarantees ‘an absence of actual
bias’ on the part of a judge. In re Murchison, 349
U.S. 133, 136, 75 S.Ct. 623, 99 L.Ed. 942 (1955).
Bias is easy to attribute to others and difficult to
discern in oneself. To establish an enforceable and
workable framework, the Court’s precedents
apply an objective standard that, in the usual
case, avoids having to determine whether actual
bias is present. The Court asks not whether a
judge harbors an actual, subjective bias, but
instead whether, as an objective matter, ‘the
average judge in his position’ is ‘likely’ to be
neutral, or whether there is an unconstitutional
‘potential for bias’.” Caperton, 556 U.S., at 881,
129 S.Ct. 2252. Of particular relevance to the
instant case, the Court has determined that an
unconstitutional potential for bias exists when the
same person serves as both accuser and
adjudicator in a case. See Murchison, 349 U.S., at
136-137,75 S.Ct. 623. This objective risk of bias is
reflected in the due process maxim that ‘no man
can be a judge in his own case and no man is
permitted to try cases where he has an interest in

115a

the outcome.’ Id., at 136,75 S.Ct. 623.” (Emphasis
supplied.)
Judge Duncan’s “personal interest” in the
outcome of a Motion requesting relief as a result of his
own non-disclosure of conflicts of interest is obvious.
Judge Duncan should be disqualified and replaced.
But Judge Duncan did not act in a vacuum; he was
joined in his unethical behavior1 by his Brethren on the
Panel, Judges Costa and Willett, who willingly became
his “partners in crime,” even after having full knowledge
of the reasons for Respondent’s Motion to Re-Open
Case, etc., and of the contents of Respondent’s
Declaration.
Recalling the proverb: “One bad apple spoils the
whole barrel,” Respondent avers that Judges Costa and
Willett have been corrupted, tainted and polluted by
Judge Duncan’s unethical behavior and that this Motion
for Reconsideration should be referred to one or more
jurists who are “pure as the driven snow,” uncorrupted,
untainted and unpolluted by Judge Duncan and his
undisclosed conflicts of interests and his participation in
deciding a Motion in which he had a personal interest in
the outcome. The case of Williams v. Pennsylvania, 136
S.Ct. 1899 (2016), is particularly instructive in this
regard. There, the U.S. Supreme Court stated:
“The Court has little trouble concluding that a
due process violation arising from the
participation of an interested judge is a defect
“not amenable” to harmless-error review,
1 Judge Duncan actually added “insult” (his participating in the
Motion to Re-Open Case) to “injury” (his failure to disclose conflicts
of interests).

116a
regardless of whether the judge’s vote was
dispositive. Puckett v. United States, 556 U.S.
129, 141, 129 S.Ct. 1423, 173 L.Ed.23 266 (2009)
(emphasis deleted). The deliberations of an
appellate panel, as a general rule, are confidential.
As a result, it is neither possible nor productive to
inquire whether the jurist in question might have
influenced the views of his or her colleagues
during the decisionmaking processing. Indeed,
one purpose of judicial confidentiality is to assure
jurists that they can reexamine old ideas and
suggest new ones, while both seeking to persuade
and being open to persuasion by their colleagues.
As Justice Brennan wrote in his Lavoie
concurrence,
‘The description of an opinion as being [for
the court] connotes more than merely that
the opinion has been joined by a majority
of the participating judges. It reflects the
fact that these judges have exchanged
ideas and arguments in deciding the case.
It reflects the collective process of
deliberation which shapes the court’s
perceptions of which issues must be
addressed and, more importantly, how
they must be addressed. And, while the
influence of any single participant in this
process can never be measured with
precision, experience teaches us that each
member’s involvement plays a part in
shaping the court’s ultimate disposition.”
475 U.S., at 831,106 S.Ct. 1580.

117a
“These considerations illustrate, moreover, that it
does not matter whether the disqualified judge’s
vote was necessary to the disposition of the case.
The fact that the interested judge’s vote was not
dispositive may mean only that the judge was
successful in persuading most members of the
court to accept his or her position. That outcome
does not lessen the unfairness to the affected
party. See id., 15 831- 832, 106 S.Ct. 1580
(Blackmun, J., concurring in judgment).
“A multimember court must not have its
guarantee of neutrality undermined, for the
appearance of bias demeans the reputation and
integrity not just of one jurist, but of the larger
institution of which he or she is a part. An
insistence on the appearance of neutrality is not
some artificial attempt to mask imperfection in
the judicial process, but rather an essential means
of ensuring the reality of a fair adjudication. Both
the appearance and reality of impartial justice are
necessary to the public legitimacy of judicial
pronouncements and thus to the role of law itself.
When the objective risk of actual bias on the part
of a judge rises to an unconstitutional level, the
failure to recuse cannot be deemed harmless.”
Wholly separate from the “influence” that their
“bad-apple” Panel Member indubitably had on them,
Respondent does not know what Judges Costa and
Willett “knew or didn’t know,” and “when.” Respondent
does not know precisely when they acquired knowledge
of Judge Duncan’s undisclosed associations and
relationships with the State of Louisiana. Did they have

118a
such knowledge when they were assigned to the Panel in
2018? At some later date?
But what Respondent does know is that Judges
Costa and Willett, like Judge Duncan, remained
completely silent, even after they had become familiar
with the contents of Respondent’s Motion to Re-Open
Case, etc., and with Respondent’s Declaration Under
Penalty of Perjury. Their remaining silent while
“circling the wagons” around their Brother Judge and
summarily ruling against Respondent, in Judge
Duncan’s “favor,” renders them equally as “guilty” of
unethical conduct as Judge Duncan.
And as Respondent also averred in his “Motion to
Re-Open Case, etc.,” and in his “Declaration Under
Penalty of Perjury,” independent action (as well as
inaction) in Respondent’s case by Judges Costa and
Willett raised serious issues about their own plausible
“bias and prejudice,” and whether they had the ability to
be “fair and impartial,” causing Respondent to allege:
“Respondent avers that each of the above and
foregoing factors clearly indicate “actual bias” in
violation of the Supreme Court’s assertion that
due process guarantees “an absence of actual
bias” on the part of a judge. In Re Murchinson,
349 U.S. 133, 136 (1955); Williams v.
Pennsylvania, 136 S.Ct. 1899, 1905-1906 (2016)
and cases cited therein. Indeed, because his Panel
improvidently sealed the record, failed to address
material issues, and made blatantly false
statements, Respondent avers that it is entirely
plausible for reasonable minds to conclude that
something other than “truth, justice and the
American way” was at work in this case.”

119a
This reasonable concern prompted Respondent to pose
the following question in his underlying Motion:
“Does the actual bias and prejudice run deeper
than just Judge Duncan? Respondent asks
rhetorically, ‘What is the Panel hiding? Who is the
Panel protecting? What is the Panel covering
--up:
Respondent avers that the only way to now
“cure” the likelihood of bias by the other two Judges is
for Judges Costa and Willett to disqualify themselves2 to
permit the appointment of one or more unconflicted and
untainted jurists to decide this Motion for
Reconsideration in a fair and impartial fashion. This
fundamental fairness was denied Respondent when
Judges Costa, Willett and Duncan participated in
deciding the underlying Motion in the first instance.
Respondent avers that his guarantee of due process
requires no less.
s/Ashton R. O’Dwver. Jr.
ASHTON R. O’DWYER, JR.
Respondent
In propria persona
1116 Monticello Avenue
Jefferson, Louisiana 70121
Telephone Number:(504) 812-9185
arodjrlaw@aol.com
2 Jason W. Anderson and Rory D. Cosgrove, “Disqualification and
Recusal of Federal Appellate Judges,” February 2019 issue of “For
the Defense,” which states: “The statute [28 U.S.C. §455(a)l is self­
executing: a judge must both inquire without a request from the
parties and continually evaluate any potential conflict at all stages
of the appeal.”

120a

_ 12/9/2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
NO. 18-98009
IN RE:
ASHTON R. O’DWYER, JR., Petitioner
Before: Costa, Willett, and Duncan, Circuit Judges.
Per Curiam:
This panel previously DENIED the Petitioner’s
motion to reopen the case and to vacate the panel’s May
31, 2019, Per Curiam opinion. The panel has considered
Petitioner’s moiton for reconsideration.
IT IS ORDERED that the motion is DENIED.

